<html>
<title> - EXAMINING MANAGEMENT PRACTICES AND MISCONDUCT AT TSA: PART I</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


      EXAMINING MANAGEMENT PRACTICES AND MISCONDUCT AT TSA: PART I

=======================================================================

                                 HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             April 27, 2016

                               __________

                           Serial No. 114-96

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                               ______________
                               
                               
                           U.S. GOVERNMENT PUBLISHING OFFICE
22-594 PDF                        WASHINGTON : 2016                           
                     
_______________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="99fee9f6d9faeceaedf1fcf5e9b7faf6f4b7">[email&#160;protected]</a>  
                     
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
Christina Aizcorbe, Transportation and Public Assets Subcommittee Staff 
                                Director
                         Michael Ding, Counsel
                    Sharon Casey, Deputy Chief Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 27, 2016...................................     1

                               WITNESSES

Mr. Jay Brainard, Federal Security Director, Kansas, Office of 
  Security Operations, Transportation Security Administration
    Oral Statement...............................................     5
Mr. Mark Livingston, Program Manager, Office of the Chief Risk 
  Officer, Transportation Security Administration
    Oral Statement...............................................     8
    Written Statement............................................    11
Mr. Andrew Rhoades, Assistant Federal Security Director, Office 
  of Security Operations, Transportation Security Administration
    Oral Statement...............................................    24
    Written Statement............................................    26

                                APPENDIX

Chairman Chaffetz Opening Statement..............................    76
Subcommittee Chairman Mica Opening Statement.....................    79
2016-04-22 Rep Sarbanes to Chairman Chaffetz and Ranking Member 
  Cummings.......................................................    83

 
      EXAMINING MANAGEMENT PRACTICES AND MISCONDUCT AT TSA: PART I

                              ----------                              


                       Wednesday, April 27, 2016

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 10:02 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Jordan, 
Walberg, Amash, Gosar, DesJarlais, Farenthold, Lummis, Massie, 
Meadows, DeSantis, Mulvaney, Buck, Blum, Hice, Carter, 
Grothman, Hurd, Palmer, Cummings, Maloney, Norton, Clay, Lynch, 
Connolly, Kelly, Lieu, Watson Coleman, and DeSaulnier.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order.
    And without objection, the chair is authorized to declare a 
recess at any time.
    We have an important hearing today examining the management 
practices and misconduct at the Transportation Security 
Administration, the TSA.
    As we enter the summer travel, many Americans are headed to 
the airport. We get a lot of people who come in from overseas 
who want to travel domestically, but we have got a lot of 
Americans who are taking their families, they are going on 
business, a whole array, everything you can think about. And 
then the numbers are pretty amazing how many people travel on a 
daily basis.
    But often when they get there, they are finding that there 
are very long lines. Now, we need our airplanes and airports to 
be as secure as possible, but the practices of securing those 
airports, I think, continues to be an ongoing question because 
sometimes the lines become so difficult and so long.
    During one week in mid-March nearly 6,800 passengers missed 
their flights due to long waits at TSA checkpoints. At the 
Charlotte airport, passengers waited more than 3 hours just to 
get through security. And many airports are complaining TSA is 
only getting worse, not better, and yet there has been a rise 
in the sheer number of people that were working at the TSA 
certainly since its inception.
    But you are also going to find that the attrition rate is 
pretty stunning, and there is a reason why. I think it is a key 
indicator as to how the organization is performing and who is 
being rewarded and not being rewarded and how do people 
generally feel about the organization.
    I think people are patient. They are willing to wait in 
line if they feel like the airport is becoming secure, but last 
summer, the Department of Homeland Security inspector general 
performed covert testing at TSA's airports' security screenings 
and found ``failures in technology, failures in TSA procedures, 
and human error.'' The IG, the inspector general, testified 
before this committee that ``layers of security were simply 
missing.''
    I understand that some recommendations are still 
outstanding, although I appreciate the TSA has taken steps to 
address many of the inspector general's findings. As TSA works 
to improve security and reduce wait times to reasonable levels, 
the agency's staffing problem threatens to undermine its 
progress.
    Currently, the agency is losing--think about this; these 
numbers are pretty stunning. They are losing about 103 
screeners each week through attrition. Now, that is a little 
bit of a scary number because think that is telling us that 
they really don't like working there.
    In 2014, this is again a very stunning number, 373 people 
joined but 4,644 people departed. There are a lot of people 
looking for good jobs, good opportunity in this country, and so 
when you have 4,600 people leave that job and they are only 
able to attract 373, what does that tell you? It tells you 
there is probably a management problem there and that there are 
probably some challenges and some underlying things and causes 
that ought to be examined.
    The government actually, I think, does a good job in that 
it surveys Federal employees at all the different agencies 
across all of government. And remember, there are more than 2 
million Federal employees out there. Of the 320 agencies that 
are ranked and scored, the TSA ranked 313 out of 320, making it 
one of the worst places to work.
    The committee has been contacted by a large number of 
whistleblowers who have given us some insight into what it 
might be. We have also reached out to some individuals. I don't 
want you to assume that the panel here today are simply 
whistleblowers. In fact, that is not the case.
    One of the biggest causes that have attributed to its TSA 
challenges is leadership and management. Strong, effective 
leadership could not be more important to an agency fraught 
with problems. Instead, as we have chatted with people and 
whistleblowers have come forward, we found that the TSA has 
developed a highly retaliatory culture that discourages 
speaking up about problems.
    They have also raised concerns about leadership failing to 
punish high-level managers who commit misconduct. When 
hardworking rank-and-file men and women are severely punished, 
yet their managers get off easy, it creates a morale problem, 
and allowing such a culture to fester has a highly detrimental 
effect on the mission of the agency, keeping the airways safe.
    I don't care where you are in life or what you are doing, 
when you see somebody who is doing something bad and it is not 
fixed, it is demoralizing. And when you have maybe a group of 
people on the line doing one thing and something happens and 
they get treated differently than the management, it is very 
demoralizing. And I think that is clearly what we are seeing at 
the TSA.
    Today's hearing is intended to focus on the toll management 
challenges like this take on TSA employees. They are those 
tasked with protecting our transportation infrastructure.
    This brings us to our witnesses today who are here to 
discuss their own experiences with systematic management and 
leadership challenges at the TSA. Their testimony before this 
committee, like all of their interactions with this committee, 
is protected. It is against the law to retaliate against 
individuals for engaging in protected activity. It doesn't 
matter if we reach out to them or they reach out to us, they 
are protected from retaliation. And communications to the press 
about waste, fraud, and abuse or mismanagement are also 
protected communications.
    These important disclosures are often an effective way to 
bring waste, fraud, and abuse or mismanagement to the attention 
of those that are in a position to remedy it. But sometimes it 
doesn't matter how many protections you have in place. 
Management and leadership in Federal agencies find subtle ways 
to marginalize or demean those who do nothing more than speak 
the uncomfortable truth.
    I want to be clear that this committee will not stand for 
reprisal against individuals for cooperating with congressional 
investigations. This is especially true for today's witnesses, 
and we appreciate their brave stature to come forward and at 
some risk come and chat with us before Congress. But it is the 
way we are going to get to the truth. It is the way we are 
going to be able to protect the greater whole. And I think the 
gentlemen here today will provide valuable insight and 
hopefully can make the whole of government, the whole of the 
TSA and its vital mission a better place to do it. So we thank 
these gentlemen for stepping forward and participating with us 
today.
    Chairman Chaffetz. And with that, I will now recognize the 
ranking member, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Today, we hear the testimony of three employees from the 
Transportation Security Administration who allege a series of 
abuses and improper practices within that agency. 
Whistleblowers are essential to identifying waste, fraud, and 
abuse, and they are critical to this committee's mission.
    In fact, based on the work conducted by this committee 
today, Federal statutes protect employees who will bring 
wrongdoing to light. I know the chairman and I share a strong 
commitment to ensuring that Federal employees who come before 
us are protected from retaliation and reprisal.
    Equally important, we as members of the committee also have 
an obligation to run these allegations to ground and determine 
if we can substantiate them. Of course, just as we want to 
protect whistleblowers from retaliation, I am sure we all agree 
that we also want to protect Federal employees from claims that 
are not substantiated.
    I thank all three of these men who have stepped forward 
today for their willingness to testify and for the information 
that they provided in their transcribed interviews with the 
committee staff. These individuals have raised troubling 
allegations of improper personnel practices within TSA. All 
three have filed complaints with the Office of Special Counsel 
through the Equal Employment Opportunity process or in Federal 
court. Each allegation we have heard deserves a thorough and 
fair investigation. I think these three individuals deserve 
that, too.
    Unfortunately, as we hold this hearing today, the committee 
has not yet had an opportunity to complete such an 
investigation. In some cases, we have not spoken with those who 
have firsthand knowledge of the allegations we have heard. We 
have also not yet heard from TSA regarding most of the 
allegations raised by these employees. I hope the committee 
will talk with all of the individuals involved and review all 
of the documents relevant to the issues we will discuss today 
in all that is fairness and that is thoroughness.
    Many of the allegations our witnesses today have raised 
were initiated under previous agency administrators. In some 
cases, the allegations were even resolved under previous 
administrators. It also appears that the current TSA 
administrator, Vice Admiral Peter Neffenger, has moved to 
address many of the practices that have been cited by the 
whistleblowers. One of today's witnesses, Jay Brainard, 
described this progress in his transcribed interview with the 
committee by saying, ``I think we have made tremendous progress 
with Mr. Neffenger.'' He added, ``Since Mr. Neffenger has come 
in, I have heard nothing in terms of misconduct.''
    Under Administrator Neffenger, TSA has issued new policies 
that clarify the membership and the role of the Executive 
Resources Council, curtail the abuse of awarded multiple 
achievement bonuses for the same activities, and ensure that 
directed reassignments are made only to support agency goals.
    Administrator Neffenger has also moved to address the 
airport security lapses identified by the inspector general and 
by the agency's own testing teams that we examined in this 
committee's hearing on TSA last fall. He has ended the Managed 
Inclusion II program that permitted individuals who had not 
received background risk assessments to receive expedited 
screening, and he has placed agency focus squarely on resolving 
all alarms at screening checkpoints. As Administrator Neffenger 
testified before this committee last fall, he is ``readjusting 
the measurements of success to focus on security rather than 
speed.''
    And so I am pleased to see that his actions are beginning 
to show real progress. However, people may not want to hear 
this, but these actions are likely to slow lines at airports 
even further, and things may get even worse if TSA's workforce 
continues to be reduced.
    Administrator Neffenger recently testified that the TSA has 
nearly 6,000 fewer transportation security officers in his 
workforce than it had 4 years ago. It is being asked to do more 
with less, and that is indeed a problem.
    So I hope that our committee will continue to focus on 
holding TSA accountable for completing essential reforms and 
that we will provide him with the resources he needs to do his 
job.
    And so I look forward to the testimony of our witnesses 
today, and I want to thank you all for being with us.
    Mr. Chairman, with that, I will yield back.
    Chairman Chaffetz. I thank the gentleman. I will hold the 
record open for 5 legislative days for any members who would 
like to submit a written statement.
    I will now recognize our witnesses. We are pleased to 
welcome Mr. Jay Brainard, Federal security director for the 
State of Kansas in the Office of Security Operations at the 
Transportation Security Administration.
    Mr. Mark Livingston is the program manager in the Office of 
the Chief Risk Officer at the Transportation Security 
Administration.
    And Mr. Andrew Rhoades, assistant Federal security director 
for mission support at the Minneapolis-Saint Paul International 
Airport in the Office of Security Operations at the TSA.
    We welcome you and thank you for being here.
    If you will please rise and raise your right hand.
    [Witnesses sworn.]
    Chairman Chaffetz. Thank you. You may be seated. And let 
the record reflect that all witnesses answered in the 
affirmative.
    In order to allow time for discussion, we would appreciate 
it if you would limit your verbal comments to 5 minutes. Your 
entire written statement will be entered into the record.
    And we will start with Mr. Brainard. You are now recognized 
for 5 minutes. Make sure you bring that microphone up nice and 
close there. You can straighten it out, but I want to make sure 
we get you clearly on audio. Thank you, Mr. Brainard. You are 
now recognized.

                       WITNESS STATEMENTS

                   STATEMENT OF JAY BRAINARD

    Mr. Brainard. Chairman Chaffetz, Ranking Member Cummings, 
and members of the committee, I am pleased to appear at the 
request of this committee today to discuss issues surrounding 
the Transportation Security Administration.
    Our business is a serious business. The national strategy 
of the United States of America is clear: Defending our Nation 
against all enemies, both foreign and domestic, is the first 
fundamental commitment of the Federal Government. When that 
commitment is in danger of being fulfilled, then it is 
incumbent upon those of us entrusted to ensure our national 
security to come forward, and if necessary, report to you, and 
to do so at whatever the cost may be. We are all here today for 
that purpose.
    While the new administrator of TSA has made security a 
much-needed priority once again, make no mistake about it, we 
remain an agency in crisis. TSA remains in crisis as a result 
of poor leadership and oversight of many of our senior 
leadership appointments, which have taken place over the past 
several years, some of which still serve in key positions 
within our agency today.
    Our culture went into rapid decline after having gone 
unchecked by its leader and various agencies and committees 
responsible for oversight, and for that reason we continue to 
have a crisis of leadership and culture.
    From 2011 to early 2012 TSA chose in abundance unprepared 
employees to fill key leadership vacancies. These were people 
who were chosen not because they were time-tested leaders or 
mature or experienced in actually leading people in large, 
complex organizations, but because they were liked or good at 
managing programs or projects. In fact, many of these leaders 
lacked any security experience and had ever worked in a field 
operation their entire career.
    The continuous result of the Federal Employee Viewpoint 
Survey each Federal agency's workforce responds to, as graded 
by its own people, has declared repeatedly our agency has 
failed its employees year after year. We continue to have a 
culture problem in TSA brought on by an unwillingness to 
address misconduct of senior executives, combined with poor 
leadership and decision-making, all of which have been the 
number-one contributing factor of our security risks and which 
led to our poor performance.
    We have low morale, a lack of trust, and field leaders who 
are fearful to speak out, and for good reason. People at all 
levels of the agency, both in the field and at headquarters, 
have spent most of their time constantly looking over their 
shoulder when doing the right thing.
    And let me make one thing abundantly clear: This is not a 
TSA headquarters issue. There are legions of decent people at 
our headquarters who are just as disgusted and just as 
concerned as I am sitting here today. This is and has always 
been a senior executive issue, a senior executive problem. I 
refer to those at the very top of the food chain.
    For years, we had many senior executives, most of which who 
completely lacked the experience needed for their position, run 
amok and make decisions or conduct themselves in an unethical 
manner, which eroded our ability to complete the security 
mission and grossly compromised the integrity of our agency.
    Until substantive change occurs, TSA will remain a culture 
of positional leadership. Despite the results of our covert 
testing being made public, we still have some of those very 
same leaders in critical positions whose focus and attention 
are on numbers first and leave security and people last. In 
fact, many of the same people who broke our agency remain in 
key positions of influence even today.
    Because of this, we continue to empower positional leaders 
who obtain compliance because they fill a certain leadership 
vacancy. And to be clear, they are not followed because they 
are leaders. Subordinates follow these positional leaders out 
of fear, whose only objectives are limited to bean-counting and 
instilling fear into anyone who opposes them. These leaders are 
some of the biggest bullies in government, and as a result, 
many people feel battered, abused, and overworked.
    These positional leaders convince themselves they are liked 
by everyone and their decisions are accepted because there's 
almost no one left to question them. They have become powerful 
in their own mind and regularly make decisions, regardless of 
the people affected by them. I know of several people in key 
leadership positions that ``went along to get along,'' who 
regret having supported the agenda of those positional leaders.
    In an effort to clean up our agency, TSA's former 
administrator John Pistole and his deputy John Halinski 
instituted an agency-wide ethics training, complete with a TSA 
Wall of Shame for the purpose of exposing a few bad apples in 
our agency and publicly shaming them. And to quote Mr. 
Halinski's message to our people in one of the videos every 
employee was required to see, ``People, we're better than 
this.''
    Well, that Wall of Shame is more than a few names light 
today as senior executives in TSA have been held to a 
completely different standard than the rest of the agency. Not 
one person for the state of our agency is glad to see any of us 
here today. Those who have spoken up have been and continue to 
be targeted and victimized, with the goal of running them out 
of Federal service.
    Until the previous--under the previous administration, 
complaints were buried and, in many cases, so were the 
complainers. No significant, consistent, or even proportionate 
action has been taken to remove or even hold leaders in the TSA 
Executive Service properly accountable for misconduct and poor 
performance.
    While the results of our covert testing were made public 
last May, it was embarrassing, and when it came time to address 
this problem, the people who were really to blame never stepped 
forward to accept or even acknowledge any responsibility. 
Instead, they sat back and they watched our officers on the 
frontline get publicly shamed. The truth is our officers did 
not fail. They did exactly what that TSA senior executive 
leadership team demanded of them.
    For years, TSA executive leadership's priority shifted 
further away from security and eventually became focused only 
on reducing wait times and increasing checkpoint throughput. 
Those Federal security directors who raised concerns or voiced 
dissenting opinion to leadership were targeted, and one way was 
through the use of directed reassignments.
    One of my counterparts had a conversation with one of the 
very senior executive leaders responsible for our problems who 
had indicated to him they developed a loyalty list and were 
systematically removing the Federal security directors who were 
on that list. For those not familiar, a directed reassignment 
is a tool regularly used by the airline industry to force 
people into retirement. And because it is technically 
permissible to do so in civilian service with a business reason 
even without a mobility agreement, they targeted specific FSDs 
and deputies. The only thing wrong was this--with this is they 
were absent a business reason.
    As a Federal security director vacancy occurs, many of them 
were filled with under-qualified personnel whose only 
redemption was their loyalty to the positional leaders who put 
them there. TSA executive leadership waged an all-out campaign 
against the Federal security directors, and of the 157 original 
Federal security directors hired after the 9/11 attacks, there 
are only five of us left today.
    When it became public knowledge that the Veterans 
Administration spent a few hundred thousand dollars on the 
directed reassignment of a few people, the public was outraged. 
TSA spent millions.
    In looking at the hearing agenda posted on the committee's 
website, it mentions what I believe to be the most important 
part of why we are here, which was the toll that management 
challenges have taken on our workforce. My opening statement 
only scratches the surface.
    As the saying goes, ``Those who do not learn from history 
are doomed to repeat it.'' While the idea of forgetting 
mistakes of the past and looking forward to a brighter future 
sounds good, the reality is our leadership usually changes when 
there's a change of administration. If that happens, and if 
these issues continue to go unaddressed, the people who damaged 
this agency will once again be off the leash, and what progress 
we have made under Administrator Neffenger will have been in 
vain.
    We need this committee to take a serious look at the road 
ahead and ensure this never happens again.
    I hope to add value to this hearing by answering your 
questions and providing insight based upon my experiences. 
Thank you again for having me. Mr. Chairman, that concludes my 
opening statement.
    Chairman Chaffetz. Thank you.
    Mr. Cummings. Would the gentleman yield?
    Chairman Chaffetz. Mr. Cummings.
    Mr. Cummings. Yes.
    Chairman Chaffetz. Yes.
    Mr. Cummings. I am very pleased, Mr. Chairman, that Mr. 
Livingston is a resident of Columbia, Maryland. This is an area 
that is shared between my district and the district represented 
by my distinguished colleague, Congressman Sarbanes. Mr. 
Livingston is a constituent of Congressman Sarbanes, and Mr. 
Sarbanes has written a letter to the committee to express his 
support for Mr. Livingston and to urge ``that the committee 
thoroughly investigate Mr. Livingston's claims.'' And I just 
ask unanimous consent, Mr. Chairman, that Congressman Sarbanes' 
letter be included in the record.
    Chairman Chaffetz. Without objection, so ordered.
    [The information follows:]
    Chairman Chaffetz. I thank the gentleman.
    Mr. Livingston, you are now recognized for 5 minutes.

                  STATEMENT OF MARK LIVINGSTON

    Mr. Livingston. Chairman Chaffetz, Ranking Member Cummings, 
and members of the committee, thank you for the opportunity to 
speak with you regarding the Transportation Security 
Administration and the reported issues of misconduct, 
whistleblower retaliation, security violations, and the lack of 
accountability pertaining to TSA's senior executives and the 
potential impact on the mission.
    I am here today to share with you what I have seen 
firsthand and as a member of the TSA senior leadership team and 
as a victim of these reprehensible practices after confronting 
and reporting misconduct by top leaders. I am here because I 
believe TSA has major management challenges, which are imposing 
great risk of failure to performing its mission effectively and 
could have serious consequences for the U.S. national and 
economic security. It matters what leaders do, and it matters 
what they do not do.
    Noted educational leader scholars, Gruenter and Whitaker, 
have stated ``The culture of any organization is shaped by the 
worst behavior the leader is willing to tolerate.'' In TSA, 
that worst has yet to be identified because the men and women 
of the agency keep seeing examples of that worst behavior being 
confronted by the media, not the Transportation Security 
Administration leadership, and there seems to be no bottom to 
this failed leadership abyss.
    I would like to first state by telling you that the vast 
majority of the frontline employees at TSA are professional and 
truly care about the important mission of the agency. Most come 
in every day and do a great job, but what you hear about is 
that 1 percent of failed leadership, and that's why I'm here 
today.
    For the record, I'm a career senior intelligence and 
security management executive, and for the past 36 years, I 
have served successfully in all of my prior roles. I am a 
disabled marine veteran, and for the one basic principle that 
has followed me through my entire adult life is that we do not 
lie, cheat, or steal, and we do not tolerate those that do. 
It's that simple.
    I am not a novice when it comes to the important matters we 
will discuss here today. Beyond the almost four decades of 
leadership experience, I bring a scholarly practitioner 
viewpoint. My doctorate of management focuses on applied 
research and expanding leadership within the field of the 
executive organizational management. My field of study has been 
on crisis leadership in organizational crises.
    The integration of organizational management issues with 
technological considerations and the global environment, while 
considering the critical role of information technologies in 
all aspects of management practice has been a direct 
correlation to my executive leadership role at TSA. I am an 
expert in the areas of organizational integration, the 
application of critical-thinking skills and how to develop the 
management high-performance teams and how to analyze and 
evaluate organizations.
    I have held a top-secret clearance for the entire 36 years 
of my service as an intelligence professional. This is an 
important note, as I will be identifying security incidents and 
violations that have occurred at TSA and explain where TSA has 
failed to act properly.
    My career professional status is good. I am in good 
standing with my agency, and I'm not pending any administrative 
action or investigation. I'm here today by my own choice to 
inform you of those challenges. I relay this information so 
that the committee might better understand that the issues I 
raised at TSA were more than just mere misconduct. This is 
about the inability of TSA to focus on the mission due to the 
overwhelming EEO complaints and personnel issues brought on by 
failed leadership.
    The refusal to address or to hold senior leaders 
accountable is simply paralyzing this agency. The leadership 
imperative is missing at TSA. In your role as an oversight 
committee for TSA, you should be gravely alarmed and concerned 
with these issues because TSA employees are less likely to 
report operational security or threat-relevant issues out of 
fear of retaliation.
    No one who reports issues at TSA is safe. This prevents the 
necessary organizational agility to respond to evolving threats 
and enemies who are always adapting to exploit any real, 
potential, or perceived opportunity to strike. This negates any 
operational improvement process that prevents the agency from 
fulfilling its mandated mission of protecting the United States 
transportation system and protecting the economic well-being 
from threats.
    Retaliation by TSA senior leadership is used extensively 
and systematic, as reported by the media and historically 
acknowledged by the GAO report 10-139 that was provided to you 
in October of 2009. The exact same thing happened to me then 
and has happened to other SES leaders then.
    Senior organizational leaders use this retaliation as a 
means to silence those who would report violations, security 
concerns, or operational issues by forcing employees into early 
retirement or resignations. No employee will be willing to 
report these issues when simple fraud, waste, or abuse are 
reasons for leaders to retaliate against employees.
    Senior leaders appearing before Congress stated that they 
will correct this behavior or fix TSA should be held to strict 
timelines or you will continue to get platitudes and false 
narratives. I would bet that you've heard this in the last 6 
months, yet you continue to hear these media reports.
    I would to take this opportunity to thank my Congressman 
and my Senator Cardin for the opportunity to represent me with 
TSA. This is democracy at its best. Thank you.
    [Prepared statement of Mr. Livingston follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you. Mr. Rhoades, you are now 
recognized for 5 minutes.

                  STATEMENT OF ANDREW RHOADES

    Mr. Rhoades. Chairman Chaffetz, Ranking Member Cummings, 
and members of the committee, thank you for the opportunity to 
speak to you regarding the TSA's use of punitive directed 
reassignments, senior leader misconduct, retaliation, and its 
impact on security.
    Directed reassignments have been punitively used by TSA 
senior leadership as a means to silence dissent, force early 
retirements or resignations. Senior leader misconduct and 
retaliation help explain why the TSA underperforms.
    Recently, I was asked to profile Somali imams and community 
members visiting my office. I will not do this. I am not a 
tiff-tiff. Additionally, my supervisor accused me of ``going 
native'' after attending a meeting at a local mosque. Those in 
the community in Minneapolis know I would never betray their 
trust by profiling them.
    This unfortunate incident is not reflective of the entire 
U.S. Government. TSA's problems are rooted in the areas of 
leadership and culture. Ours is a culture of misconduct, 
retaliation, lack of trust, cover-ups, and the refusal to hold 
senior leaders accountable for poor judgment and malfeasance.
    Habitually, my agency bypasses merit principles in its 
allocations of awards and hiring. Simply put, we violate Jack 
Welch's principles of picking people. We elevate people in 
senior positions that do not have the experience, character, 
and ability to lead and manage a large, complex organization. 
The meteoric rise of unqualified individuals eventually 
corrects itself but only after subordinates and other employees 
suffer the consequences of poor leadership.
    There is a chronic indifference towards investigating 
legitimate complaints. Moreover, my agency counsel employs 
nondisclosure agreements to keep people silent about misconduct 
and malfeasance, and the vicious cycle continues.
    While some of these issues may predate the current TSA 
administrator, I've been in direct communication with him and 
my agency chief counsel on all these issues, some dating back 
since February of 2015, and I have yet to receive a reply.
    Directed reassignments: I am the only TSA employee whose 
directed reassignment has been accepted by the U.S. Office of 
Special Counsel. I was given a directed reassignment based on 
the mistaken belief I was leaking information to the media in 
Minneapolis, and my professional and personal relationship with 
the former Minneapolis-Saint Paul Federal security director, 
area director, chief operating officer, and TSA acting 
administrator Ken Kasprisin. My agency was aware I was a recent 
father of two wonderful children but could not leave the State 
of Minnesota unless I was willing to lose custody of my 
children.
    There's a financial price we as taxpayers pay for TSA 
mismanagement. I estimate the money saved by ending punitive 
directed reassignments, mismanagement, and out-of-control 
bonuses to senior executives would likely fund enough 
transportation security officers to staff some of our largest 
airports in the Nation.
    The most egregious example of senior leader misconduct 
occurred with an assistant administrator. This employee sent 
provocative messages to a subordinate female under his purview. 
When questioned by an OI agent, he lied three times. The 
recommended penalty for a single lack of candor associated with 
an official investigation is removal from service.
    A 24-page Office of Professional Responsibility report 
recommended this assistant administrator be removed from 
service. Instead, either the deputy or the acting TSA 
administrator ignored the advice of the Office of Professional 
Responsibility. The subject of this investigation is still 
employed with TSA. Why is it acceptable for TSA senior 
executives to lie when TSOs are removed for the same 
infraction?
    In conclusion, the American public and Congress should care 
about what occurs in TSA because its senior leaders are 
mismanaging our agency, and our security effectiveness is 
compromised. Our corporate culture is analogous to the movie 
Animal House while the relationship between our headquarters 
and the field is best depicted in the TV series Game of 
Thrones.
    I cannot imagine any company being successful when it 
treats its employee the way TSA does. If this was a private 
company, the entire leadership team would have been removed 
long ago.
    I thank this committee for the opportunity to appear before 
you. I thank my Congresswoman from Minnesota, Betty McCollum, 
for her steadfast support. Until we correct the problems facing 
my agency, the TSA will always fall short of operating within 
the band of excellence. Our performance and potential reflects 
an agency in dire need of oversight. The American public 
deserves an agency focused on defeating the threat. Employees 
in TSA, TSOs in particular, deserve leaders who value and treat 
them with respect. We can do much better.
    Mr. Chairman, this concludes my prepared statement. I look 
forward to answering any questions from you or other members of 
this committee. Thank you.
    [Prepared statement of Mr. Rhoades follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Mica. [Presiding] Well, on behalf of the committee, we 
thank all three of the witnesses and we will now turn to 
questions. And I will begin with the first round.
    All three of you are currently TSA employees?
    Mr. Rhoades. Correct.
    Mr. Mica. And all three of you bravely have come forward to 
talk about retaliation, about a toxic environment, about 
misconduct within the areas you have worked. What concerns me 
is some of it is historic but at least the first witness and 
the second witness--or third witness I heard say they believe 
it still continues. And would you say that is the case? Is it 
still going on?
    Mr. Brainard. Yes, sir.
    Mr. Mica. Mr. Livingston?
    Mr. Livingston. Yes, sir, I would agree.
    Mr. Mica. Mr. Rhoades?
    Mr. Rhoades. Yes, sir.
    Mr. Mica. So that is very troubling. You unfortunately 
confirmed some of our worst suspicions. They have a huge 
bureaucracy in TSA. We have had about 45,000 screeners. We are 
somewhere in the neighborhood of 42, I guess is the cap. But 
52,000, and I know they cook the books a bit, moved some 
positions to other agencies, but they are somewhere in the 
neighborhood of 8 to 10,000 administrative personnel making--
well, I know the 4,000 in the D.C. area make over $103,000 a 
year on average. So they are well-paid.
    I read the stories of what they did to you, and since we 
began this inquiry, we have had dozens of others come forward 
throughout TSA telling us that they have experienced similar 
misconduct.
    I am a little bit concerned. I have tried to give 
Neffenger, the new administrator, a chance to straighten things 
up, but again, you tell me that the people who are the most 
abusive are still there. Is that right, Mr. Brainard?
    Mr. Brainard. Yes, sir. I didn't go on record with your 
comment. What I have observed in TSA, I think Mr. Neffenger has 
done his best to engage and get his arm around the situation, 
but we haven't resolved it. There are--we have had instances 
happen ----
    Mr. Mica. But the people--I mean, this comes from a pretty 
high level, and the retaliation has taken place. I know there 
have been some memos, et cetera, operational guidelines that 
have been revised, but the folks are still in place. That has 
got to be pretty demoralizing.
    Mr. Brainard. It is. And they are still in place. I can 
tell you that--and I don't want to go into specific detail by 
mentioning names because they are entitled to some sense of due 
process and an investigation, but the reality is not only are 
they still with the agency, some of them are still in their 
original positions even today.
    Mr. Mica. So ----
    Mr. Brainard. So we continue to have this issue.
    Mr. Mica. What concerns me, too, is the ability to perform 
now is also hindered. Neffenger is well-intended, but some of 
the reports that leaked about the poor performance--you saw 
some cooking of the books, too, on wait times, is that correct, 
any of you?
    Mr. Rhoades. Yes, sir.
    Mr. Mica. You did, Mr. Rhoades. That has been--well, the 
failures of performance and then the wait times and then the 
retaliation. There has been retaliation for also the facts 
coming out. I won't say that you revealed the facts, but those 
were the facts of what was taking place. Some of you got blamed 
for that, is that correct, Mr. Brainard, Mr. Livingston, Mr. 
Rhoades?
    Mr. Rhoades. Yes, sir.
    Mr. Brainard. [Nonverbal response.]
    Mr. Livingston. [Nonverbal response.]
    Mr. Mica. All three. I am very concerned about what has 
taken place. Again, Neffenger is well-intended. He is trying to 
correct the situation with more training, et cetera. But TSA 
can't recruit, it can't train, it can't retain, it can't 
schedule, and it can't manage the huge bureaucracy that has 
been created. That is part of the problem. And it won't be 
corrected.
    Then those people on the line see what is taking place, and 
they have pulled me aside at my airport, you see those three 
guys that are doing nothing, Mr. Mica, sitting there, they are 
all making over a hundred grand. We are busting our tail trying 
to process these people, and they are having a sit-down chat 
and enjoying themselves. Part of the--I guess the TSA gets the 
name thousands standing around, but these guys are a thousand 
sitting around earning huge salaries while the others are doing 
their work.
    The meltdown that has already occurred, my colleagues, here 
are just a few headlines. This is Fort Lauderdale-Miami, 
American Airlines, 6,800 people last month missed their 
flights. Chicago, 1,100 American Airlines missed their flights, 
Chicago. Charlotte airport, 3-hour waits on Good Friday. Long 
lines, cranky travelers. Seattle, this one is Denver, this one 
is JFK. I mean, and we haven't gotten to the summer when you 
get the heavier traffic. You all know what I am talking about. 
You think we are headed for a rough time this summer, Mr. 
Brainard?
    Mr. Brainard. I absolutely believe that's the case. And you 
know, I think it's important to point out that when we're 
talking about personnel issues and we're going and talking 
about the senior executive service and the people are still 
here, it's--it goes beyond that. A lot of the things that 
you're reading about in the paper, the things about the $1.5 
million app for instance, same decision-makers. When you're 
talking about moving security resources out of airports, same 
decision-makers. When you're talking about, you know, turning 
the FTE back in in order to bean-count, which has put us in 
quite a situation for this summer, same administrators. The 
same people who broke this agency are the same people who are 
essentially still running it.
    And I will offer to you that in--post the testing results 
coming out, there was a tiger team effort that took place in 
TSA. And of that tiger team effort, there were some wonderful 
recommendations that were offered. I can offer you that I 
served as a senior advisor for a period of about 2 months, and 
I can tell you the most important part of that survey, the most 
important part of that working group was to fix the security. 
And the second most important part was fix the leadership. And 
somehow I don't think that message got back.
    Mr. Mica. Well, I thank you.
    Mr. Livingston. Sir?
    Mr. Mica. Did you want to say something?
    Mr. Livingston. Sir, I can add ----
    Mr. Mica. Real quick. I am going to yield as much time to 
Mr. Cummings, but go ahead.
    Mr. Livingston. Sir, I can add a very unique perspective to 
your first question. As member of that senior leadership team, 
I sat in the office or at the table with the other senior 
leaders as a deputy assistant administrator. I can tell you 
that Administrator Neffenger has brought a new perspective to 
the agency. He's actually hired a chief operating officer. The 
problem is he's got the same people doing the same thing, doing 
the same problems. He has the right mindset and the energy to 
change it, but he's got to put different people in different 
positions. He's not going to get there with the same team. He 
has the energy and the focus to do it, but he can't do it with 
the same people.
    Mr. Mica. Well, what you tell us is troubling.
    Let me yield now to Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Gentlemen, I want to thank you for being here. And I am 
concerned about the allegations. I think they are very serious 
allegations. And we definitely need to have a thorough inquiry 
so we can hear all sides. I think you would agree with that?
    Mr. Brainard. Yes, sir.
    Mr. Livingston. Yes, absolutely.
    Mr. Rhoades. Yes, sir.
    Mr. Cummings. Mr. Livingston, you testified that you were 
removed from your position, and basically, you were demoted, is 
that right?
    Mr. Livingston. Two grades, that's correct, sir.
    Mr. Cummings. So two grades, that meant you lost some pay?
    Mr. Livingston. I did, yes, sir.
    Mr. Cummings. About how much did you lose?
    Mr. Livingston. I think it's about $10,000 a year plus 
bonuses and other stuff, sir.
    Mr. Cummings. And you said that right at the end of your--
so you said that they did it right at the end of your 1-year --
--
    Mr. Livingston. Probation ----
    Mr. Cummings.--probationary period, is that right?
    Mr. Livingston. Yes, sir. They removed ----
    Mr. Cummings. So how close were you to the end of the 
period before they did this?
    Mr. Livingston. I think it was roughly about 48 days before 
my probationary period, but I had served in that period as a 
probationary SES for 17 months. But because the Secretary of 
Homeland Security, Secretary Napolitano, had announced her 
retirement, they had frozen all CQ--ECQs being certified as 
they put in a new Secretary of Homeland Security at the time.
    So I was in that position, in an active position an 
extraordinarily long time, plus my agency was slow in getting 
my ECQs to OPM. The bottom line is they removed me, then 
investigated me, and when I was cleared, they didn't reinstate 
me. The reason they removed me is because I had found my senior 
culpable for preselection, and then I had reported another one 
for sexual harassment. So after they removed me, I had failed 
my probationary period. And after I had failed that, they 
couldn't reinstate me. They had already removed me.
    Mr. Cummings. And what do you think the probationary period 
is for?
    Mr. Livingston. It's to evaluate your performance, sir.
    Mr. Cummings. So as I understand it, during your 
probationary period, you don't have certain important rights, 
is that right?
    Mr. Livingston. That's correct, sir.
    Mr. Cummings. Like the ability to challenge your demotion 
to appeal, right?
    Mr. Livingston. Yes, sir.
    Mr. Cummings. So they basically demoted you, and they can 
demote you if they want to and you don't have any adequate 
protections and there is no due process during that period, is 
that right?
    Mr. Livingston. That's correct, sir.
    Mr. Cummings. So you must have been very upset about that?
    Mr. Livingston. Well, considering that I had gotten two 
medals and a great midterm and was pending another medal at the 
time, I was shocked. I was blindsided.
    Mr. Cummings. So during your interview with the committee 
staff, you were asked if it would be easier for agencies to 
retaliate against employees if probationary periods were 
extended beyond 1 year, you said, ``yes,'' is that ----
    Mr. Livingston. Yes, sir, it would.
    Mr. Cummings. You were also asked, ``Given what happened to 
you and you claim that TSA retaliated against you during your 
probationary period, would you support probationary periods 
that are longer than the 1 year?'' And you said, ``no,'' is 
that right?
    Mr. Livingston. At TSA, sir, it hasn't worked. I've seen 
other agencies where it would. If it's done in good faith, I 
think it could, but in my current situation, I couldn't see it 
working for 2 years, so my answer would be no. No, sir.
    Mr. Cummings. So there is a proposal that has been made 
before our committee ----
    Mr. Livingston. Yes, sir.
    Mr. Cummings.--to extend the probationary period and to 
make it even longer.
    Mr. Livingston. Yes, sir.
    Mr. Cummings. That would mean that you could have been 
demoted even if you worked there even longer. Do you think that 
that is a good idea?
    Mr. Livingston. Well, that recommendation also comes with 
some other regulations that include a mentor and then 60/90-day 
checkups. So there's a process that comes with that where 
you're informed as you go. I was blindsided. And that 
recommendation wouldn't allow that.
    Mr. Cummings. So if we made it longer, then whistleblowers 
like you would have fewer due process protections for an even 
longer period of time. And you would oppose that change?
    Mr. Livingston. If it came with checks and balances, I 
would not be opposed to it, sir. The whole point of being an 
SES is to help the government. It's not about the individual. 
But if it's not balanced, it wouldn't work. The time period 
isn't the issue. It's the quality.
    Mr. Cummings. I got you.
    Mr. Livingston. And TSA hasn't shown that quality, sir. 
They haven't acted in good faith.
    Mr. Cummings. Okay. So, Mr. Brainard and Mr. Rhoades, do 
you agree with that, and do you oppose having a longer 
probationary period when whistleblowers like you would have for 
your protections?
    Mr. Rhoades. So, I think the problem that's plaguing our 
agency is the fact that we have codes of conduct, we have 
policies, but we don't follow them. We have leaders that just 
abuse their power and authority. On a general term, if we had 
competent, ethical leaders, you can make the probationary 
period 10 years. It wouldn't matter if they would do the right 
thing. But as I--as Mr. Livingston stated, in the current state 
of TSA with as much retaliation, with as much of--you have to 
be in an inner circle or liked to get promoted, I absolutely 
would not support it.
    Mr. Brainard. Sir, I really don't care. I don't care if 
it's a year. I don't care if it's two years as long as there's 
a checks-and-balance system in place. I mean, it's--you know, 
you have to have engaged leadership that is going to follow the 
performance of the individual, and if the person is not 
performing, to give them a plan to help them be successful and 
if they're not, end it. So as long as there is a structured 
process in place to help develop the individual and to make a 
determination if they're going to be a good fit, to me, it 
doesn't matter how long it is.
    Mr. Cummings. So you have a situation where you are saying 
no matter who is at the top, you have got people that have been 
there--I guess, most of these people have been there for a 
while?
    Mr. Brainard. Yes, sir.
    Mr. Cummings. Did you want to say something, Mr. 
Livingston?
    Mr. Livingston. I was going to answer ----
    Mr. Cummings. Yes, let me finish my question. So no matter 
who you have at the top, you have got these folks underneath. I 
guess many of them have been around for as long as TSA has been 
around, I guess, am I right?
    Mr. Livingston. Many years, sir.
    Mr. Cummings. And are these people easily identifiable? I 
mean, is it easy to know who they are?
    Mr. Rhoades. Yes, sir.
    Mr. Livingston. Yes, sir.
    Mr. Cummings. And so they basically--so Neffenger can do 
whatever he wants or put out whatever mandates or rules to 
correct the situations generally, but unless you have these 
folks cooperating, it is still not going to be resolved. Is 
that a fair statement?
    Mr. Livingston. Sir ----
    Mr. Cummings. Things are not going to be resolved?
    Mr. Livingston. My perspective is they're waiting him out 
to see if he's going to be sticking through, and they're just 
not giving him a fair, honest, professional shake. And a career 
professional would support him no matter how long he's going to 
be there, a day or 10 years. When he makes a decision, it 
should be carried out. And he's not getting a fair, honest, 
professional shake.
    Mr. Brainard. If I can say also to that, when you're 
talking about the whole of TSA, some 50 or 60,000 employees and 
then you get to the leadership component, that starts getting 
even smaller. And then you get to the real crux of the problem. 
We're not talking about 50 people. We're talking about a 
handful of people up there who've managed to maintain power in 
this agency who have escaped accountability.
    Now, some of those people, some of the most egregious 
offenders, they've departed TSA with either a golden parachute 
or some private sector lucrative offer. But we're only talking 
about a handful of people.
    There are a number people within the executive service 
within TSA that are outstanding at what they do, just as our--
there are a number of people in the frontline with our officers 
that are outstanding at what they do. We're talking about a 
very small number of people for whatever reason I cannot 
explain have managed to hold onto power, and they've--they're 
the worst people abusers in the agency and they're still there 
and there's nothing being done about that. And I don't know to 
what extent our current administrator is being empowered to do 
his job.
    Mr. Cummings. All right. Thank you very much.
    Mr. Mica. Okay. Thank you, Mr. Cummings.
    The gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Dr. Livingston, I have an article which talks about the 
$336,000 TSA paid IBM for producing an app. This article says 
``When an app isn't much more than a random number generator, 
it is hard to imagine how it could cost that much for the 
development alone, but it is typical of government spending.''
    And I understand from the staff that you once recommended 
an analysis that another employee refused to do that--and ended 
up spending $12 million on a project that should have cost just 
$3 million. Would you tell us about that and any other examples 
of huge waste that you have seen on your watch?
    Mr. Livingston. Sir--yes, sir. When I came on as the deputy 
assistant administrator for the Office of Intelligence and 
Analysis, we did a watch floor transformation. And in that, we 
had allocated originally $3-3.5 million to do this 
transformation. And because there was no alternative of 
analysis completed, it was not managed properly. There was a 
30/60/90-day signature that was completed that was not done 
properly. So the wrong equipment was ordered. It arrived, 
didn't work. We had to do it over, and it cost three times the 
amount.
    And even today, if you went and looked in that watch floor, 
there's about $500,000 worth of equipment sitting in a box in 
that office space, and there isn't manned--where it should be 
about 12 people working, there's probably four, maybe five 
people working. It was a total waste of money.
    And while it may not sound like a lot when you look at the 
big picture, it's wasted almost $7, $8, maybe $9 million. 
That's a lot of money if it was being paid for out of our 
pocket. And I think the taxpayers would be upset to know that 
TSA wasted that money.
    Mr. Duncan. Well, it may not sound like much to those in 
the Federal Government, but I can tell you, it sounds like a 
lot to the average person out there when you pay $12 million 
for something that should have cost $3 million.
    Do either of you, Mr. Rhoades, Mr. Brainard, have you seen 
examples of waste in your positions?
    Mr. Rhoades. Yes, sir. In Minneapolis we built a regional 
headquarters for a regional director that had no intentions of 
coming to Minneapolis. He stayed in Michigan. And throughout 
that whole process, as I worked with the Office of Real Estate, 
I would identify why are we spending $300,000 on an office 
space that this regional director has no intention of coming 
to?
    We're in the process right now of Minneapolis of changing 
that, but we're going to spend more money to revamp that office 
space for a coordination center where we should have done that 
at the beginning. We identified that years ago. I identified 
that years ago. But what happens is when you make suggestions 
like that, they just move around you or you get cut out of the 
meeting and you're not consulted anymore. So we'll spend--we've 
already spent $300,000 on this office space and we're going to 
spend, I don't know, $100, $150,000, potentially more, when we 
should have done that upfront. And it's just--it's gross 
mismanagement.
    Mr. Duncan. Well, the easiest thing in the world is to 
spend other people's money.
    Mr. Brainard ----
    Mr. Brainard. Sir, I'd like to comment on the app that you 
just mentioned. And I've got to tell you, that's one of the 
strongest indicators of the mentality that we have not only of 
the feeling that they're bankrolled to pretty much do whatever 
they want no matter how silly it seems, but when this story 
came out about the app, you find out that the app's no better 
than chance.
    And I put together this Ouija board that's got expedited 
screening on it and standard screening here at the bottom, 
which would had been just as effective as that app, and it 
would have cost a lot less. You could have the same type of 
outcome with a quarter, flipping a quarter at the checkpoint. 
And ----
    Mr. Duncan. Well, I understand that there have been other 
software developers who, just for fun, have created a similar 
app at almost no cost, and to pay $336,000 to IBM was a total 
rip-off, it seems to me.
    Mr. Brainard. Yes, sir. I also do app development as well, 
and I can tell you, it does not take a lot of thought to do 
what they did. And ----
    Mr. Duncan. Yes, Mr. Livingston--Dr. Livingston?
    Mr. Livingston. Sir, I wanted to make a comment for the 
record. I pointed out that fraud, waste, and abuse, and I was 
told to let it go. And I also made a point of saying that this 
was a lot of money and it was wasteful, and nobody took any 
action.
    Mr. Duncan. All right. Well, let me mention one other thing 
since my time is running out. Mr. Rhoades, I understand that 
you think that the wait times at the Minneapolis airport have 
been falsified. Is that correct? And have you heard about that 
happening in other locations, too?
    Mr. Rhoades. I cannot comment specifically on other 
locations. I can comment at Minneapolis. In 2013 we received 
what's called a Federal security director office of 
inspection--basically, a health check. And on page 18 of 40, 
which I provided to this committee, a supervisor at the 
checkpoints had identified that he or she--it doesn't give his 
or her gender--had expressed some frustrations that the wait 
times that they submit up for was being changed by management.
    I can tell you at the Minneapolis-Saint Paul airport the 
airport police has at times begun to tabulate wait times. So 
think of that for a second. We are expending police resources 
at our airports to check on TSA reporting our wait times.
    And as recently as last month, the airport is investing in 
some sort of automated wait time calculations. That would 
indicate, sir, that they don't trust the numbers that we're 
reporting.
    Mr. Duncan. All right. Thank you very much.
    Mr. Mica. I thank the gentleman.
    The gentlelady from New Jersey, Mrs. Watson Coleman, you 
are recognized.
    Mrs. Watson Coleman. Thank you very much, Mr. Chairman, and 
thank you, gentlemen, for being here.
    I want to ask one question. I think it was you, Mr. 
Brainard, who said that there are only a handful of really bad 
administrative-level people, a lot of others have left, but you 
said there is only a handful. Is that 10, is that 12, is that 
5?
    Mr. Brainard. I'd say it's less than 20, ma'am. I don't 
know the precise number, only the people that I deal with in my 
world. I don't speak for--I'm speaking strictly within 
operations. I don't speak for the Office of Law Enforcement, 
the Office of Global Strategies, the Office of Human Capital. 
There are some 13, 15 different divisions within TSA. I can 
only speak to what I know and the impact. But I will tell you 
that operations has the largest piece of the pie.
    Mrs. Watson Coleman. I think I better pay better attention 
to your organizational chart because I am really kind of 
confused where people are located on it, and I will do that.
    Dr. Livingston ----
    Mr. Livingston. Yes.
    Mrs. Watson Coleman.--you wrote in the statement you 
submitted for the record today, ``Today, TSA lacks the senior 
leadership courage to make the necessary changes so that the 
agency can accomplish its mission,'' right?
    Mr. Livingston. I did.
    Mrs. Watson Coleman. Now, in your transcribed interview 
with committee staff you stated the following about 
Administrator Neffenger, ``I give him all due credit for being 
probably one of the smartest people in DHS, and he is the right 
guy to lead TSA.'' Is that accurate?
    Mr. Livingston. It's ----
    Mrs. Watson Coleman. You said that? Thank you.
    Mr. Livingston. Yes, ma'am.
    Mrs. Watson Coleman. You also stated in your transcribed 
interview, and again ``Now, Pete Neffenger has stood up 
publicly and said this is what we need to do, but he is the 
only voice.'' Why is Admiral Neffenger the right guy to lead 
TSA, and what has Administrator Neffenger actually said that 
needs to be done at the TSA?
    Mr. Livingston. When I was the deputy assistant 
administrator, I sat next to him probably 8 months as a member 
of the Counterterrorism Advisory Board. I know him to be an 
intellectual, I know him to be a leader, and when he was the 
vice admiral of the Coast Guard, he spoke truth to power. He 
talks now about innovation, he speaks with authority, and I 
think he is a man of integrity.
    What I don't think is he has the supporting cast around 
him. If you think of it as a sports analogy, he can't play 
every position on the field. I think he has good intentions for 
TSA. I think he needs the supporting cast to help him. I think 
all of you have heard him here when he's testified. I think 
he's--speaks honestly. I think he is well-intended. But what I 
think he needs is the people around him to buy into what he's 
doing.
    He has since hired a chief operating officer, Gary Rasicot, 
to come in and help him. That is one example of him trying to 
get things right, Congressman.
    Mrs. Watson Coleman. You also stated in your transcribed 
interview, ``Here's the thing. The workforce is waiting out Mr. 
Neffenger because they think the elections are coming.''
    Having worked in State government at various levels, I know 
what it is for people to wait for leadership to come in and 
then wait for leadership to come out, and they say we were here 
when you got here; we are going to be here when you leave. So 
are you speaking of those individuals that have some kind of 
an--and I am going to use this as a generalized term--civil 
service protection that can't be moved that are representing 
the most difficult element to deal with and to work with?
    Mr. Livingston. Ma'am, my intention with that comment was 
to admit that the middle management and the senior-level 
leadership hasn't provided the necessary leadership to support 
the administrator to let it be known that they bought in, that 
no matter how long he's there, whatever he has said should be 
carried out. I don't think there's the necessary buy-in to 
carry out what he's advised and directed to be done. Whether 
he's there a day or 4 years like Mr. Pistole, once he decrees 
it, it should be carried out, regardless of the time frame.
    Mrs. Watson Coleman. Do you ----
    Mr. Livingston. That was my intent.
    Mrs. Watson Coleman. Do you think you could share with me 
some of the things you think need to be institutionalized under 
Mr. Neffenger's leadership that would help this agency as it 
may transition into new leadership under a new administration?
    Mr. Livingston. Yes, ma'am, I do. I think he's come out 
very specifically, and when he has his weekly staff meetings, 
he says he's interested in five things. He wants to know about 
how well we're doing in the airports with the pre-check, he 
wants to know about the acquisitions, he wants to know how 
we're doing with our budget, he wants to know how we're doing 
with the morale. He's very clear where he's going. He's very 
specific, and I can provide you that information very clearly.
    Mrs. Watson Coleman. Okay. I appreciate that. Thank you 
very much. I yield back my time.
    Mr. Mica. I thank the gentlelady.
    Mrs. Watson Coleman. Thank you, sir.
    Mr. Mica. The gentleman from North Carolina, Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. Thank each of you for 
your testimony here today, for your willingness on behalf of 
the American people to speak up. We know that it does not come 
without risk. And I for one am committed to making sure that 
all of our Federal employees are treated fairly. And certainly, 
when we see retaliation, it is troubling.
    Dr. Livingston, when I hear some of your testimony, I 
always watch the audience, and I see people nodding their head 
yes or shaking their head that they can't believe these kind of 
things are happening. So let me just make sure that I am clear. 
During your probationary period, were there areas where you 
were able to appeal to other--like the special counsel where--
did you appeal some of the decisions to those or could you have 
appealed to those?
    Mr. Livingston. Sir, the rules from OPM is it's a 1-year 
probationary. They have any right to terminate you for any 
reason. And under the current guidelines, there's no recourse. 
The problem is I was never told one time, either in writing or 
verbal, to adjust. What I do have is a record of 96 emails 
saying great job. What I do have is a midterm saying great job. 
There was no indication there was ever a problem. I was told on 
a Monday great job over the weekend working for some work for 
the White House ----
    Mr. Meadows. Right.
    Mr. Livingston.--I was told Tuesday that you're being 
nominated for an award, and I was told Thursday you're done.
    Mr. Meadows. So now, you do have a claim currently with 
OSC, is that correct?
    Mr. Livingston. Yes, sir, I have a petition with OSC, yes.
    Mr. Meadows. How about from an EEO standpoint? Do you have 
----
    Mr. Livingston. I have filed a lawsuit and an EEO as well, 
sir, and ----
    Mr. Meadows. All right.
    Mr. Livingston.--have an attorney.
    Mr. Meadows. So you have those two appeals, I guess, 
sitting out there or at least requests at this particular 
point. I just wanted to make sure that that is clear, that in 
addition to this probationary period, you have actually filed 
in those two areas, is that correct?
    Mr. Livingston. It is a first time for me, sir, in 36 
years, but I have.
    Mr. Meadows. No, and that is fine. You know, when injustice 
happens or that perceived injustice, certainly, we want to make 
sure that you are given the right to appeal.
    So let me go a little bit further because part of this is a 
Federal employee, you know, management issue, but the American 
taxpayers probably are not as in tune to that or care about 
that as much as the safety and security of air travel.
    Mr. Livingston. Yes, sir.
    Mr. Meadows. So is it your testimony, Dr. Livingston, that 
this mismanagement is affecting the safety and security of 
Americans?
    Mr. Livingston. Sir, it's my testimony today that we have 
non-intel professionals running your Office of Intelligence and 
Analysis.
    Mr. Meadows. So non-intel running the Office of 
Intelligence. All right.
    Mr. Brainard, is it your testimony here today that the lack 
of sufficient management practices within TSA is putting 
Americans at risk?
    Mr. Brainard. Mr. Meadows, I would say that's the case, and 
let me quantify that. When I talk about the lack of experience 
in positions, right now, this summer we are going into what 
they call a very challenging, challenging season, and we're 
looking at situations in these airports where they have 
recently pulled out the Managed Inclusion II aspect of 
expedited screening. That is a very small part of that whole 
process and package.
    Mr. Meadows. Right.
    Mr. Brainard. And because they have done that, we're going 
to have this problem. The problem along with that is the fact 
that plan A was to put that in place, but nobody sat down and 
put a plan B in place if they had to pull any one or all those 
options off the table. In this business you have to understand 
continuity of operations, and it's very clear to me just on 
that alone they didn't have a continuity of operation. That is 
detrimental to our security.
    Additionally, when you're talking about security at the 
airport, you're talking about things like this app, this 
randomizer. There are stories out this week about a proposal 
that existed pre-current administrator about not screening 
passengers on flights out of airports. To me, that speaks in 
and of itself the level ----
    Mr. Meadows. So your testimony is that correcting the 
situation is of the highest priority for the security of the 
American traveler, is that correct?
    Mr. Brainard. Absolutely.
    Mr. Meadows. All right. So let me finish in the last few 
seconds. I was at Dulles a few weeks back visiting with Customs 
and Border Protection as we looked at the whole vetting of visa 
overstays of the country. And there, they indicated that TSA 
doesn't check all the background areas of potential workers. So 
they can be on a terrorist watch list, they could have other 
backgrounds, and that we are not systematically checking all of 
the backgrounds, resources that we have at our disposal. Is 
that correct, Dr. Livingston?
    And I yield back to the chairman.
    Mr. Livingston. Sir, let me research and get back to you 
that. I'm not exactly sure of that. I think that's the case, 
but let me get back to you specifically. I don't want to 
mislead you on that, but I can find out.
    Mr. Mica. I thank the gentleman.
    The gentlelady from Illinois, Ms. Kelly, you are 
recognized.
    Ms. Kelly. Thank you, Mr. Chair, and welcome to the 
witnesses.
    Just for clarity, Mr. Rhoades, you told committee staff 
that after March 1, 2015, no one has told you that they believe 
wait times are being falsified. Is that correct? Is that what 
you said to the committee staff?
    Mr. Rhoades. Ma'am, I described to the committee staff that 
in March 1, 2015, I was aware of an incident at Minneapolis 
where a manager was in our coordination center. He was counting 
the wait times of the people in the checkpoint queue, and he 
was pulled away to respond to a real incident at the airport. 
He had counted approximately 18 minutes, and then a new manager 
came in. I believe she counted either somewhere around 5, but 
we've reported 18.
    Ms. Kelly. So is that ----
    Mr. Rhoades. So ----
    Ms. Kelly.--a yes or no?
    Mr. Rhoades.--that's as best as I can tell is March 1, 
2015. But as I stated earlier, ma'am, when the airport police 
start having police officers count your wait time, it's an 
indication of trust. And so I would maybe look at that as the 
measurement that when police organizations at airports are 
starting to count the wait times of your checkpoint security 
queue, then something's wrong.
    Ms. Kelly. But to that question, you don't have a yes or a 
no?
    Mr. Rhoades. I don't have any information, ma'am.
    Ms. Kelly. Okay.
    Mr. Rhoades. Yes, ma'am.
    Ms. Kelly. In early 2015, the preliminary results of tests 
of TSA's screening operations conducted by the Department of 
Homeland Security's inspector general leaked to the press. The 
inspector general made findings that, according to the 
Secretary of Homeland Security Jeh Johnson, ``were completely 
unsatisfactory.'' In response to these results, Secretary 
Johnson ordered TSA to implement the 10-point plan. Mr. 
Brainard, are you aware of these findings?
    Mr. Brainard. I am, ma'am.
    Ms. Kelly. Okay. As part of the ongoing effort to complete 
the 10-point plan and resolve security vulnerabilities, 
Administrator Neffenger had worked to address what he 
identified as a ``disproportionate focus on efficiency and 
speed and screening operations rather than security 
effectiveness.'' To that end, Administrator Neffenger testified 
before this committee that he has provided new training to 
``every transportation security officer and supervisor to 
address the specific vulnerabilities identified by the OIG 
test.''
    Mr. Brainard, has your staff received this training?
    Mr. Brainard. Yes, ma'am.
    Ms. Kelly. Okay. You discussed the impact that this 
training has had on the performance of the screener workforce 
during your transcribed interview with the committee staff. You 
stated, ``Well, the management-essentials training obviously 
has improved our situation in terms of how they conduct their 
jobs, the thoroughness, I mean. There have been improvements in 
terms of, I think, without seeing any test results, the 
detection capabilities.'' Is that correct?
    Mr. Brainard. Yes, ma'am.
    Ms. Kelly. Okay. Administrator Neffenger has also refocused 
the screener workforce on resolving alarms at checkpoints, and 
he testified he is readjusting the measurements of success to 
focus on security rather than speed. When you spoke with 
committee staff, you were asked whether under Administrator 
Neffenger there had been ``a new emphasis on resolving the 
alarm,'' and you said, ``absolutely.'' Is that correct?
    Mr. Brainard. Yes, ma'am.
    Ms. Kelly. What is the importance of resolving alarms at 
the checkpoints?
    Mr. Brainard. Ma'am, making sure that our people are 
thorough. You know, the job that an officer does is certainly 
the most important job in TSA. And one of the hazards of that 
job is when you're constantly dealing with people all day and 
the routines are the same, it's very easy to get lax in 
procedures.
    And so part and parcel with that training--and I use that 
word culture and I really mean it--is to improve our culture, 
to make sure that people understand the importance of resolving 
the alarm versus just clearing the passenger and letting him 
go. Also, part of that was to explain limitations of the 
equipment that we had.
    You know, and this is--these are all things that came out 
of the tiger team effort, some great stuff that happened. And 
certainly since Mr. Neffenger has been in, there has been a 
shift to security and trying to get that pendulum to go back so 
we strike a balance.
    But I'll offer to you this: The things we talk about, a lot 
of things we talk about happened prior to his administration. 
Those testing results, those aren't new. They may have been 
released, but the previous administration knows what our 
performance was, and they still implemented a number of 
different programs and processes, which in my opinion did not 
help our security situation.
    I've talked with the committee staff members about some 
other security concerns which have happened. All those things 
took place when they knew, they knew what the testing results 
were.
    As a Federal security director, I see the testing results 
within my AOR. I see everything currently today within the 
State of Kansas. What I didn't see prior to that was everybody 
else's, but that leadership team did.
    Ms. Kelly. I just want to throw in one more question. What 
is the nature and impact of TSA's staffing shortages?
    Mr. Brainard. Say that again, ma'am?
    Ms. Kelly. What is the nature and impact of TSA's staffing 
shortages? And I am out of time after you answer.
    Mr. Brainard. That's a very good question, and I can sit 
here probably for the next 20 minutes and talk about it.
    Ms. Kelly. The chairman won't let you do that.
    Mr. Brainard. I know they won't let me do that. So let me 
just say the most important aspect of this. You know, when we 
are not properly staffed, it causes our people to be under a 
lot more stress. Now, regardless of how much Mr. Neffenger or 
myself or our supervisors preach the importance of resolving 
the alarm, it puts pressure on security checkpoint, the 
officers.
    Additionally, when you look in the media, you've got 
airports screaming about the possibility of going privatized. 
And if there's one thing that puts pressure on a Federal 
employee of 13 years is the threat of privatization. That is 
one thing that is absolutely at the forefront of their mind. 
And you can't have people focused on the security mission when 
they're focused on their job security.
    I give Mr. Neffenger a lot of credit because he's baring 
the news to the public. And the word on the street is you 
remember the day after Thanksgiving? That's going to be every 
day this summer. And so it's important for us to make sure that 
we reassure our officers so that, regardless of the fact that 
somebody is going to have to wait a few extra minutes, we still 
have their back. And we have an administrator who fully 
supports that, and that is part of the culture that he has 
established with TSA. That's a very difficult job. It's 
certainly not the most popular job, and we certainly appreciate 
it.
    Mr. Rhoades. Mr. Chairman, may I add one thing?
    Mr. Mica. Yes, sir, in conclusion.
    Mr. Rhoades. We keep talking about the failures at the 
checkpoints, and candidly, I think that's insulting to TSOs 
because the leaders are what put the TSOs in that environment. 
And so, yes, they've got a difficult mission, yes, we need to 
resource them, but let's not forget the fact that the people 
who brought us to the dance of those--the failures have the 
detection rate are still in leadership positions. And what 
training did they get? So, again, we're deflecting the problem 
on the TSOs, but we're not really talking about all the people 
in leadership positions who brought them to that dance.
    Mr. Mica. I thank the gentleman and yield now to the 
gentleman from Michigan, Mr. Walberg.
    Mr. Walberg. Thank you, Mr. Chairman. Thanks to the 
panelists for being here.
    Mr. Livingston, you know, we have been, of course, here 
today talking about failure at seemingly all levels in employee 
morale and training, et cetera, and the consistent terrible 
rankings that DHS has. What do you think it is going to take to 
instill a meaningful change in employee morale?
    Mr. Livingston. Leadership. Accountable leadership that 
gets results that's consistent and that is honest because, 
right now, there's no trust.
    Mr. Walberg. Accountable leadership, go back to that. What 
does that mean?
    Mr. Livingston. Well, right now, the value on conformity 
and silence is greater than integrity and innovation. If we 
don't have an agile agency that's more focused on the threat 
and making security the priority, you're not going to get an 
agency that's going to be agile. And right now, the agency is 
supposed to be working on the threat, and right now, we are 
more worried about conformity and silence. So I would tell you 
if you don't build trust with the workforce, you're never going 
to make the morale better.
    Mr. Walberg. So the results that we are talking about today 
aren't a surprise to you?
    Mr. Livingston. Not in the least bit, sir.
    Mr. Walberg. Mr. Brainard, we have heard of senior 
positions being filled with unqualified staff, untrained staff, 
specifically individuals with little or no management or 
security experience. Can you share your experience in this 
regard, specifically whether you know of any efforts on the 
agency to address this issue?
    Mr. Brainard. Well, let me give you another example, and 
there are several. In 2013, an active shooter opened fire at 
the Los Angeles airport, killed one of our officers, wounded 
two, wounded a total of seven people. And in response to that, 
some of our senior leaders, these folks who have a questionable 
background and certainly lack the security experience 
necessary, all got together and decided to standardize a 
checkpoint panic alarm system. And the purpose of the alarm was 
to press it when there's an eminent threat so our people could 
have protection from law enforcement at the quickest possible 
opportunity.
    So of the 450 airports where they installed those, some 
710-plus checkpoints, they installed those alarms. That's 
great. It's a good security move. The problem is they're all 
covert alarms. They've got an auto dialer that calls the police 
department.
    So if you have a law enforcement officer standing there and 
you have a situation like you did in New Orleans where the guy 
comes through the checkpoint chasing our people with a machete, 
if that officer hadn't been there to take that perpetrator out, 
several people would have been hurt or possibly killed that 
day.
    How do you install 710 alarm systems on a government 
contract and you forget to put in an audible alarm? We 
installed the audible alarm in our hub in Wichita, and we put 
out the specs to other Federal security directors nationwide.
    That in and of itself, when you're talking about the 
changes that they put into these airports, I mean, there's a--
the rationale behind some of this stuff absolutely makes no 
sense from a security standpoint.
    You know, risk-based security is a title that's slapped on 
everything. And the motto is from the previous administration 
there's never been a risk I wasn't willing to accept. It's like 
dealing with a financial investor. You give a financial 
investor $100,000 of your money and he or she will do things 
with it they would never do with their own. That's one example 
of the logic that goes and the thought process that goes on.
    One of my counterparts took a survey over a period of 5 
months with calls that we have with TSA leadership prior to Mr. 
Neffenger's arrival, and over a 5-month period there were 147 
topics discussed, not one of them was security-related. They 
may have talked about playbook or they may have talked about 
some security aspect, but there was always a metric driving it. 
And it was a running joke. This is the priority of that 
leadership.
    Mr. Walberg. Okay. Let me jump to another point here. Can 
you walk us through the process that TSA engages when they are 
evaluating a potential new hire?
    Mr. Brainard. At which level, sir?
    Mr. Walberg. At any level, a new hire at management level 
specifically, but any other. What is the process that TSA walks 
through?
    Mr. Brainard. Well, it varies, sir. You have--with 
officers, obviously, there's an online process, and locally, 
we're not involved in that. It will do candidate assessments 
and so forth. There's background checks conducted. As a Federal 
security director, I don't get a lot of insight into that.
    At the administrative level, posting it on USAJOBS, whether 
it's internal and external people apply for it, and then you 
have within the SES level, and those are done by the Executive 
Resource Council at TSA headquarters. The administrator is 
certainly involved in that decision. It just varies with 
different components.
    Mr. Walberg. Okay. Mr. Rhoades, complaints to leadership at 
the TSA going unacknowledged, ignored, et cetera. Have you ever 
heard justification for these complaints not being accepted or 
reviewed?
    Mr. Rhoades. No, sir, there is no logical explanation for 
that.
    Mr. Walberg. What explanations have been given?
    Mr. Rhoades. Precisely, none.
    Mr. Walberg. None? None at all?
    Mr. Rhoades. No contacts; no emails; no Drew, you're nuts: 
I've got a differing opinion; hey that's a good idea; nothing.
    Mr. Walberg. So it just happens and allowed to happen?
    Mr. Rhoades. I can't answer that. It just--I--the only 
thing I can answer, sir, is I've been--I've not been contacted.
    Mr. Walberg. Okay. Okay.
    Mr. Rhoades. That's all I can answer.
    Mr. Walberg. Thank you. I yield back.
    Mr. Mica. The gentleman from Massachusetts, Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman. And I want to thank the 
witnesses for helping the committee with its work today.
    In my previous life, I was a union steward and a union 
president, and then later on, a labor lawyer, practicing labor 
lawyer on behalf of unions. I am just curious, you know, when I 
was a steward on the worksite, when I had employees that were 
being treated unfairly, I would take it on myself. That would 
be my job. I would deal with management to make sure that 
people were being treated fairly. That way, my workers weren't 
continually banging heads with management; it was me. And, you 
know, I sort of enjoyed that work, but a lot of people don't.
    Would it be helpful at all in your workplace of you had 
somebody like that that you could go to that would--I know that 
AFGE has a representative in the workplace, but you don't have 
full bargaining rights and all the rights that the other 
Federal employees have, so you don't have those. Would that be 
helpful?
    Mr. Rhoades. Sir, I'd like to answer that. I'd like to 
first answer this by saying my AFGE president from Minnesota is 
here in attendance in support of this testimony.
    Mr. Lynch. Great.
    Mr. Rhoades. I think the fact that she is here supporting 
me talking about mismanagement ----
    Mr. Lynch. Yes.
    Mr. Rhoades.--in my agency is a powerful signal hopefully 
to my agency.
    I'll start off by saying this: My AFGE president in 
Minneapolis and I sat in my office. The management wanted to 
fire this person because he made a mistake, and when I looked 
at the table of penalties, it was excessive. So what I did as 
what's called the designated grievance official is I reversed 
it. I eliminated it. We had a great conversation in my office, 
and I own the decision. And like I said, as long as you have 
ethical leaders willing to do the right thing and not be ----
    Mr. Lynch. Yes.
    Mr. Rhoades.--coerced from the top, it could work.
    Mr. Lynch. Yes.
    Mr. Rhoades. But it requires ethical leadership, sir.
    Mr. Lynch. No, I understand that.
    Mr. Rhoades. And totally off topic, I grew up in Braintree, 
Massachusetts ----
    Mr. Lynch. Oh, God bless. That is my district.
    Mr. Rhoades. Yes, sir.
    Mr. Lynch. You know, you are still voting there, you know.
    Mr. Rhoades. I wish I could, sir.
    Mr. Lynch. Oh, you do. We just know how you would vote 
anyway, so we do that on your behalf.
    [Laughter.]
    Mr. Rhoades. Yes. Yes, sir. Yes, sir.
    Mr. Lynch. Now, I don't want to spend a lot of time on 
that, just, you know, what do you think, Mr. Livingston?
    Mr. Livingston. Sir, the most important thing about TSA is 
the people, the people in the mission. And if you don't make it 
to match, TSA is never going to get better.
    Mr. Lynch. Yes.
    Mr. Livingston. We've got a great leader, but it's getting 
lost in translation ----
    Mr. Lynch. Look, I have got to tell you, I am very happy to 
hear about Mr. Neffenger. And he has been before this 
committee. He is a frequent flyer here, and he is trying to put 
in some of the changes that we need.
    I want to jump to something else, though. We did talk with 
Mr. Neffenger about the--look, checkpoints are very important.
    Mr. Livingston. Yes, sir.
    Mr. Lynch. I mean, all you have got to do is if you Google 
checkpoint bombings or checkpoint attacks, you know, you look 
at what happened in Brussels, you know, you look what happened, 
you know, at the airport checkpoint, and the rail checkpoint --
--
    Mr. Livingston. Right.
    Mr. Lynch.--you know, suicide bombers detonating at both of 
those, look at Paris outside the stadium where President 
Hollande was watching the game between France and Germany, 
those suicide bombers hit at the checkpoint. So what goes on at 
that checkpoint is incredibly important, and we have got to 
have a whole different strategy for how we handle that because 
that has been the focal point of all these attacks.
    And, you know, I am not calling out my TSA screeners, but, 
you know, as the ranking Democrat on the National Security 
Subcommittee, I go to those classified briefings and I saw what 
the inspector general did, you know, sending people through 
with Ace bandages with knives in their Ace bandages or guns is 
strapped to their leg, and I have got to tell you, like 90 
percent of those folks got through, 90 percent of them. And 
these are major airports in our country.
    So I am not looking to place the blame on any particular 
aspect of this, but that is unacceptable. So we have got to 
work together. And Mr. Neffenger has said he is going to go 
back and redesign this whole thing so that we will do a better 
job at that.
    Mr. Livingston. Yes, sir.
    Mr. Lynch. But I cannot not criticize when we have a 90 
percent failure rate, so that has got to change.
    But we get a lot of turnover. We get a lot of turnover, and 
I think some of that is related to the fact that we don't--the 
way we treat our employees. You know, this ought to be a 
profession, and these folks are doing incredibly important 
work.
    You know, people yell about protecting our borders. Well, 
that screener at that airport, that is your border, and, you 
know, we have got to make sure that those employees have the 
protections and the rights to be able to do their job.
    And one of the things I am concerned about, and this is 
what I want to ask you about, my concern from a national 
security standpoint is whether or not those passengers are 
screened efficiently. The airline priority is moving people 
through that checkpoint and getting so many people--that is why 
you have got these people being timed, your screeners being 
timed on how many--what is the wait time on getting these 
people through.
    Anybody who travels, and we all travel regularly, you have 
got to get there a little earlier, you have got to adjust your 
schedule so, you know, in case you do have, you know, an alert 
or something like that at the airport. And we want our 
screeners to do a damn good job. So the priority has to be 
safety and security and what's going on at that checkpoint. It 
can't be the airline needs to move product, needs to move 
people through that.
    So what do you think is winning out today between those two 
priorities, effective screening or moving passengers? What is 
the priority that is prevailing today in our nation's airports?
    Mr. Livingston. Sir, I don't speak for the agency. I can 
tell you that we're not going to compromise security for speed. 
I can tell you that we're going to balance it. I tell you that 
TSA is not going to compromise our mission to expedite 
passengers through at the expense of our mission. What we're 
going to do is we're going to get better, we're going to keep 
pushing pre-check, we're going to keep pushing a better 
process, and we're going to get more people, and we're going to 
get better at this. Mr. Neffenger has made it a priority.
    There's a day that doesn't go by a TSA where this isn't a 
priority. I can tell you that every single senior leader that 
he talks to at TSA, this is a topic of discussion.
    Mr. Lynch. Okay.
    Mr. Livingston. I don't want you to think that it's not a 
priority ----
    Mr. Lynch. Okay.
    Mr. Livingston.--but I've got to go back to the original 
point I made earlier. He needs the right team to do it.
    Mr. Lynch. Sure. Sure.
    Mr. Brainard. Sir, if I can, as a Federal security 
director, I work in a field operation, and I'm responsible for 
everything in the State of Kansas. Speaking for Kansas, I was 
in Maine last year, Iowa for 10 years before that, Indiana 
before that, and I can tell you there's a stereotype with the 
airlines that all they care about is customer service and 
throughput. That's not necessarily accurate.
    Mr. Lynch. Okay.
    Mr. Brainard. There are a number of airlines that partner 
with TSA successfully every day. There are a number of airports 
that partner successfully with TSA every day. The issue is is 
that we are the only entity with the DHS that deals with three 
constants: departures, arrivals, connections. And when we're 
not doing our job as efficiently or as effectively as we can, 
they have a right to be upset about that, and we need to find a 
solution.
    The problem that we have right now is that the previous 
leadership team oversaw--that oversaw TSA put in a plan A 
without a plan B.
    Mr. Lynch. Yes.
    Mr. Brainard. If we had the plan B, we would not be here 
right now, and that's reflective upon that leadership. And I 
don't think there's a day that Mr. Neffenger doesn't come to 
work and just--he didn't get full disclosure when he took the 
appointment probably, and God bless him for being here. But 
he's out trying to cheerlead this. But that's why we're at 
where we're at, and it's the lack of experience within 
leadership that got us there. We did not have a plan B when we 
put in plan A.
    Mr. Lynch. Okay.
    Mr. Brainard. Thank you.
    Mr. Lynch. Mr. Chairman, I want to thank you for your 
indulgence. I appreciate that.
    Mr. Mica. Thank you.
    Mr. Lynch. Thank you.
    Mr. Mica. Let me turn to the gentleman from Alabama, Mr. 
Palmer.
    Mr. Palmer. Thank you, Mr. Chairman.
    Mr. Rhoades, I believe you used to work alongside former 
acting head Ken ----
    Mr. Rhoades. Kasprisin, sir.
    Mr. Palmer. Kasprisin, thank you very much, at Minneapolis-
Saint Paul. Mr. Kasprisin has stated before that thousands of 
airport workers who are only subject to random threats are the 
single-greatest threat to aviation security. Now, TSA employees 
are regularly rooted out for being caught rummaging through 
baggage or for inappropriate behavior, which obviously it is 
good that we are catching them. But my concern is by the 
repeated reports that there are only three U.S. airports that 
currently require employee security checks--Atlanta, Miami, and 
Orlando--and in Atlanta they had a major gun-running operation 
busted in 2014. Additionally, we have reports that there are 
some 73 employees at about 40 airports who potentially have 
terrorist ties.
    At some point is the TSA causing more insecurity than it 
solves? I mean, frankly, as a very frequent traveler, it gives 
some concern that the screening process may identify potential 
terrorists, yet they continue to work there.
    Mr. Rhoades. So let me try to answer that question, sir. I 
believe if the TSA was mandated to screen every employee at 
airports, it candidly would require much more resources. I am 
unqualified to professionally comment on how much those 
resources would require, but what I can say is that the 
Minneapolis-Saint Paul airport there are, I believe, over 
10,000 people that work at that airport. Now, obviously some of 
them come during various times of the day in various shifts. 
And certainly the insider threat has received a new focused 
based upon world events.
    What I will say is we are resourced in FTE based upon our 
mission, our baggage and passenger screening. Again, I'm 
unqualified to comment whether we should also receive resources 
----
    Mr. Palmer. Well ----
    Mr. Rhoades.--in that, but I can say that's not our 
specific focus.
    Mr. Palmer. Let me put it this way. Obviously, we're 
talking about just some basic screening, right?
    Mr. Rhoades. Yes, sir.
    Mr. Palmer. Okay. Every staff member that works here goes 
through screening to get into an office here. And in terms of, 
you know, being able to do their job, if you know you have to 
go through a screening process, you show up early.
    Mr. Rhoades. Just ----
    Mr. Palmer. Is that unreasonable?
    Mr. Rhoades. No, that's not unreasonable, sir. I think what 
our administrator has done, rightfully so, is focus--is 
reducing some of those access points at those airports. And if 
you're aware of what's called SIDA badges in various access 
points, those are available to some employees. However, again, 
I don't have any data to suggest or talk intelligently with 
respect to how many access points. I can say at Minneapolis the 
number of access points have been reduced, and we continue to 
reduce them.
    Mr. Palmer. Well, just think about it for a moment that if 
we know there is--the TSA thinks there is 73 potential 
employees potentially with terrorist ties, that is who they 
have identified, that there might be potentially others, and 
that we are not screening them. It doesn't give you a high 
comfort level.
    Mr. Rhoades. I don't disagree with you, sir.
    Mr. Palmer. Mr. Brainard, I would like to follow up on Mr. 
Duncan's questions regarding wasteful spending in which you all 
described expenditures such as $330,000 spent on an absentee 
regional director in Minneapolis-Saint Paul, a $12 million 
project that was over budget by three times its original 
amount. And I could almost ask for a hearing just on project 
overruns. Three hundred and thirty-six thousand on an app that 
you, Mr. Brainard, described as being as effective as an Ouija 
Board in accomplishing its task. I am sure the more we continue 
to hear from other employees at different airports, we are 
going to continue to hear similar stories to that effect.
    You might be aware that last April, the TSA Aviation 
Security Advisory Committee released a report concluding that 
they could not afford full employee screening and that it would 
not reduce the risk of overall public safety despite numerous 
voices from inside the TSA speaking out to warn of insider 
threats. Do you believe this illustrates where their priorities 
lie when you look at this other spending.
    Mr. Brainard. Thank you for the question, sir. Sorry. Thank 
you for the question, sir. When it comes to spending, another 
example to give you where they could have put the money into 
making--toward making something like that happen, when they did 
the directed reassignments, I went from Iowa to Maine. I had 
received a near-perfect evaluation. There was no vacancy in 
Maine. The Federal security director in Maine received a 
perfect evaluation. He was being sent to Wisconsin. Between the 
two of us, you're talking in excess of a $250,000 just for the 
move that was earmarked for those two Federal security 
directors.
    The FSD in Jacksonville got sent to Iowa. I was there. 
There was no vacancy. There was no reason to send it. All of 
these Federal security directors were performing in excess of 
standards. No Federal security director had more experience. 
The Maine operation, which is a wonderful operation, was 
smaller and less complex than what I had. The FSD in Wisconsin 
to Arkansas, the FSD in North Carolina to Los Angeles, his 
spouse from Los Angeles to Washington, the FSD in West Virginia 
to San Diego, there was no reason for these moves. I don't know 
what the price tag is on all those moves, but we could have 
certainly used that funding more appropriately.
    Mr. Palmer. Well, and that just brings me back to the point 
I was trying to make with Mr. Rhoades, that you are spending 
all this money and we know that not every TSA employee is up to 
standard. I mean, potentially, 73 may have terrorist ties. But 
we are spending all this money and we are not investing in the 
security apparatus that we need to make sure, absolutely, 
positively certain that we have the very best people on the job 
and that we are protecting our airports.
    I saw you shaking your head, Dr. Livingston. I presume you 
may have a comment.
    Mr. Livingston. Sir, full disclosure, just like my partner 
here to my left, we're from the same area as well. I'm from 
Prattville. I know you're from Clanton so ----
    Mr. Palmer. Well, actually, I am from Hackleburg, Alabama, 
and I lived in Hoover. And by the way, today is the 5-year 
anniversary of the tornados that went through Alabama with such 
devastating impact.
    Mr. Livingston. Wow. Okay.
    Mr. Mica. I thank the gentleman. Did you want to finish a 
response, Mr. Livingston?
    Mr. Livingston. Yes, sir. So to answer your question, sir, 
there needs to be greater oversight. I was part of the office 
that identified that original 73. We didn't have access to the 
list. I was actually part of the team that decided we needed to 
notify NCTC that we needed to generate a letter back to them to 
say we didn't have access to that database.
    I've also been part of the secure flight team that 
identified we needed to do a better job of screening. So there 
is an opportunity there to do better screening, and there's 
also a better opportunity for TSA to do better monetary 
discipline. I identified the $10--$10 million excess spent on a 
watch floor. So yes. Yes, sir, there is an opportunity to be 
more prudent with the taxpayers' money. Any time you see an 
example of waste, fraud, and abuse, we've got to do better. 
Yes, sir.
    Mr. Palmer. I thank the chairman. I yield back.
    Mr. Mica. I thank the gentleman.
    The gentleman from Missouri, Mr. Clay.
    Mr. Clay. Thank you, Mr. Chair.
    And, Mr. Livingston, TSA cut its screening staff over the 
past couple of years anticipating that its pre-check program 
would help speed up the overall process, but not enough 
passengers have enrolled. News reports have indicated that 
morale inside of TSA is extremely low, which is likely a factor 
contributing to staffing shortages affecting TSA security.
    Reports indicate that travelers are arriving at security 
checkpoints where not available queues are open for general 
screening. And I can attest to that going through St. Louis's 
airport. I am part of the pre-check program, but it is more 
often than not it is closed. And I am told by officers that 
they don't have enough people to staff it.
    Is there a long-term strategy to fix the morale issue and 
the employment issue? I know there is--go ahead.
    Mr. Livingston. Yes, sir. Yes, Congressman. There is a 
plan. I know the administrator has touted the fact that we're 
putting 200 extra TSO officers through the academy each week.
    Both of my counterparts here work in those airports and can 
speak directly to the screening process, but I can tell you 
from a pre-check standpoint I know that we're putting more 
advertising out to get more people enrolled. We're dutiful 
trying to get more people into the program. We're showing--
trying to show them the advantages of that. Pre-check is a high 
priority for the agency, sir, and we're trying to get more 
people into that. Once we do that, the more people that are in 
pre-check, we think we can sustain that much better. And then 
I'll let my counterparts, sir ----
    Mr. Clay. No, no, no. Here is the point is that the excuse 
I get ----
    Mr. Livingston. Yes, sir.
    Mr. Clay.--at St. Louis airport is we don't have enough 
officers to staff it. So, you know, is that just something they 
are telling me?
    Mr. Livingston. Sir, there is a staff at issue, and I know 
the administrator has talked to OMB about staffing issues. I 
know that there is a long-term strategy to address that issue. 
It is a resource issue of both money and people. Turning the 
switch is going to take some time, but he has addressed that. I 
think he has a short and a midterm and a long-term plan. He's 
working with the senior staff around him to do that. And I 
think both of these gentlemen who are working in the airport 
can tell you what they're doing ----
    Mr. Clay. Well ----
    Mr. Livingston.--daily.
    Mr. Clay.--some of suggested shifting officers from TSA's 
controversial Behavior Detection Program to regular screeners. 
So let me go on.
    Mr. Livingston. Yes, sir.
    Mr. Clay. Mr. Rhoades, I have a question for you.
    Mr. Rhoades. Yes, sir.
    Mr. Clay. I am kind of concerned about this article I am 
reading about a Mohamed Farah from Minneapolis. Are you 
familiar with him?
    Mr. Rhoades. I am.
    Mr. Clay. And he is an imam and part of an influential 
Somali group. You know, here is what he says. There is an 
ongoing pattern of racial profiling and harassment by TSA 
agents at the Twin Cities airport. He said recently he was 
asked by an agent who says, ``Hey, were you going to make a run 
for it if I hadn't given your ticket back?'' And the only 
response he has gotten from TSA and the Congressman from that 
area, Mr. Ellison, is that they take these complaints 
seriously.
    Well, I think it is a little bit more than that. He has 
also been given a TSA control number from the agency's redress 
program, and he said it doesn't help either. So what we can do 
for Mr. Farah that would change the conditions that he 
experiences every time he goes through your airport?
    Mr. Rhoades. Thank you for that question, sir. You may not 
realize, but there's a New York Times article that was 
published this morning about profiling. You may know that in my 
opening statement I was asked to profile Somali imams and 
community members visiting me in my office. Those are facts. 
It's contained in my written midyear evaluation that I provided 
to this committee.
    So Mohamed Farah is the director of what's called Ka Joog. 
I was not at the checkpoint during that time so I can't 
intelligently speak to what was or was not said. What I can say 
is whether you're black, white, male, female, Somali, Jew, 
Christian, Hindu, we should treat you the same. And it doesn't 
matter if you're flying on whatever airlines, you should be 
treated with respect.
    Again, I'm not either taking Mohamed's position or refuting 
his position insomuch as I--to say that when we get to know 
people of the Somali community, they're hardworking. They want 
to be American citizens. My mother was an immigrant. My mother 
was a Japanese national, became a U.S. citizen and took her 
oath of citizenship in Boston, Massachusetts.
    Mr. Clay. Well, how are you going to change Mr. Farah's 
experience when he encounters your agents, your officers?
    Mr. Rhoades. The best way I can answer that, sir, is like 
any investigation or inquiry, you've got to get the facts. I 
have met Mohamed Farah many times. We can at times have what's 
called a passenger support specialist, have someone assigned to 
him in the future when he flies out to make sure things like 
that don't happen, and we're happy to do that.
    Mr. Clay. Have you disciplined the officers that he has 
encountered?
    Mr. Rhoades. I don't know the names of the officers, 
candidly, sir. I'm unqualified to speak to that. So I don't 
have that information with me.
    Mr. Clay. Your camera footage can identify--you have 
identified these officers?
    Mr. Rhoades. Again, sir, I don't have those facts. What I 
am suggesting is in my own experience with respect to the TSA, 
they've been less than forthcoming in addressing my complaints. 
So I would say that my complaints mirror Mohamed Farah's.
    Mr. Clay. This is totally unacceptable.
    Mr. Livingston. Sir, has somebody from TSA gotten back to 
you with these questions?
    Mr. Clay. No, no, I am just reading it today and realizing 
this guy is being mistreated here.
    Mr. Livingston. Would you like for somebody from TSA to --
--
    Mr. Clay. Sure, I certainly would.
    Mr. Livingston. I'll take that as an action, sir, and get 
back to you with somebody from TSA, sir.
    Mr. Clay. Thank you. I'm sorry ----
    Mr. Mica. No problem.
    Mr. Clay.--about going over.
    Mr. Mica. I thank the gentleman. And you will get, 
hopefully, a response.
    Let me recognize the gentleman from Georgia, Mr. Carter, 
now.
    Mr. Carter. Thank you. Thank you, Mr. Chairman. And thank 
all of you for being here. We appreciate your presence here 
today.
    I want to start with you, Mr. Brainard, if that is okay. As 
I understand it, at one point you were assigned in Iowa, is 
that correct ----
    Mr. Brainard. Yes, sir.
    Mr. Carter.--in the Midwest? And while you were there in 
Iowa, you received the highest performance rating that you 
could possibly receive ----
    Mr. Brainard. Yes.
    Mr. Carter.--while you were working there? And also, I 
believe that you received a Federal Security Director of the 
Year Award?
    Mr. Brainard. Yes, sir, I've received the Federal Security 
Director of the Year, Secretary's Team Award, the Gale Rossides 
People First Award, which is one of the two top awards you can 
receive in our agency, and a number of other types of awards 
from local stakeholders, partners, fusion centers, things like 
that.
    Mr. Carter. Right. Okay. Well, then, as I understand it, 
they tried to reassign you to Maine?
    Mr. Brainard. Yes, sir.
    Mr. Carter. They tried to reassign you to Maine after you 
had ----
    Mr. Brainard. They did reassign me to Maine.
    Mr. Carter. They reassigned you to Maine after you received 
all these accolades and all these awards?
    Mr. Brainard. Yes, sir.
    Mr. Carter. Do you believe that that was their way of 
trying to get rid of you, to reassign your position?
    Mr. Brainard. Well, I can't speak to their motives. It 
would be unfair for me to speak to their motives. I'll speak to 
facts.
    Mr. Carter. Was it a bigger airport? Were you needed there 
or ----
    Mr. Brainard. No, sir, it was a smaller airport, less 
complex, fewer employees, fewer airports.
    Mr. Carter. Why would an agency take one of their best 
employees? Obviously, they wouldn't have given you these awards 
if they didn't think you were doing a good job and put you at a 
smaller airport where your skills and your abilities would not 
be as useful.
    Mr. Brainard. Because, according to them, the reason for 
the directed reassignment was because my skill set was needed 
for that particular operation. Unfortunately, there was another 
Federal security director who had the same length of service in 
that I did and who had been a high performer. That's the reason 
they provided each of the Federal security directors who 
happened to be the longest-serving Federal security directors 
in TSA. There was a caveat. There were at least three Federal 
security directors that I was aware of that they did not move 
but they had to sign an agreement to stay at their duty station 
one year and then they would retire. And they forfeited their 
right to take any type of litigation against the agency.
    Mr. Carter. Now ----
    Mr. Brainard. So three people were provided an exemption 
with the caveat that they had to retire.
    Mr. Carter. Okay.
    Mr. Brainard. July, right after that came--I think this 
bears worth mentioning--there was a VERA announcement, which 
reminded everybody that putting pressure or coercion on 
employees to retire is a prohibited practice.
    Mr. Carter. Okay. Well, let me ask you. And you did 
relocate to Maine?
    Mr. Brainard. Yes, sir.
    Mr. Carter. When you relocated to Maine, was that a 
financial hardship on you?
    Mr. Brainard. Oh, yes.
    Mr. Carter. And your family, I can assume it was.
    Mr. Brainard. Yes, sir.
    Mr. Carter. Okay. Was there a vacancy near where you were 
before or ----
    Mr. Brainard. No, there was no vacancy. There was in Maine 
a sitting Federal security director. There was no vacancy. And 
if there had been a vacancy, there were certain--certainly 
other people there at the operation qualified to fill these 
positions.
    It's important to note that when you're moving this 
particular skill set around the country, we have some 750 
assistant Federal security directors and deputy Federal 
security directors, and the men and women that fill those 
positions, most of them are more than qualified ----
    Mr. Carter. Okay.
    Mr. Brainard.--to fill those positions.
    Mr. Carter. Well, let me ask you. How much would it have 
cost TSA to relocate you to Portland, Maine?
    Mr. Brainard. They earmarked on the PCS move in excess of 
$100,000.
    Mr. Carter. I have got down here in my notes $113,000.
    Mr. Brainard. That would accurate.
    Mr. Carter. And is this happening elsewhere? Does this 
happen, Mr. Rhoades?
    Mr. Rhoades. Sir, it happens everywhere. As you may read in 
my written testimony, I'd like to call the example of Mark 
Haught. This was a gentleman who was moved from Charlotte to 
Los Angeles. When he moved from Virginia over to Charlotte, the 
agency paid him $197,000 for one move. During that time, two of 
his sisters and his brothers died. His wife, after he got a 
directed reassignment to Los Angeles, was given a directed 
reassignment in Los Angeles back to Washington, D.C., on the 
opposite end of the United States. That's the punitive nature 
of directed reassignments ----
    Mr. Carter. Okay.
    Mr. Rhoades.--and the high cost.
    Mr. Carter. Let me make sure I'm understanding this now. So 
this is taxpayers' money that we're paying this?
    Mr. Rhoades. Yes, sir.
    Mr. Carter. So we could potentially be talking about 
millions of dollars in taxpayers' money to put ----
    Mr. Brainard. You are talking about millions of dollars.
    Mr. Carter. And not only that, but it also causes the 
employee financial hardship?
    Mr. Brainard. I'll offer you this. When they moved me to 
Iowa, my counterpart in Jacksonville couldn't come. He didn't 
come to Iowa. He was off on medical. So you know what they did? 
They TDY'ed an assistant Federal security director in Iowa, put 
that acting Federal security director in hotel for 9 months, 9 
months. They put her in that hotel for 9 months, and they 
didn't fill that position until January of 2015.
    Mr. Rhoades. Sir?
    Mr. Carter. Go ahead.
    Mr. Rhoades. Ed Goodwin from Florida, he was given a 
directed reassignment. He was supposed to replace Jay Brainard 
in Des Moines, and he had--his parents were 89 and I believe 95 
years old. One of them had Alzheimer's. His daughter was a high 
school senior in her last year of high school, and he was 
underwater in his mortgage and they gave him a directed 
reassignment. You know what he did? He quit. He resigned. And 
that's what he--and the New York Times wrote about him as well. 
That's what our agency does to people they want to run out.
    Mr. Carter. Okay. Well, we have got a number of moving 
parts here. You know, we have got what I consider to be wasting 
taxpayers' money I am very concerned about. We have got another 
concern about whether this is intentional and a way to get rid 
of employees or to discipline employees.
    Mr. Chairman, I just have to tell you, I am pretty 
disgusted right now, and I am looking forward to us having 
another hearing. From what I understand, we are going to be 
doing that. And certainly, we want to get to the bottom of 
this.
    Mr. Rhoades. Yes, sir.
    Mr. Carter. Mr. Chairman, I will yield back, and thank you 
all again for being here.
    Mr. Rhoades. Yes, sir.
    Mr. Mica. I thank the gentleman.
    I will recognize the delegate from the District, Ms. 
Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Could I just say to all three of you that we very much 
appreciate your service and appreciate your courage in coming 
forward.
    I chair the Equal Opportunity Commission. I am very 
interested in this kind of alleged retaliation. It is 
interesting that when Congress passed title VII, it passed a 
retaliation provision in the statute that it is very, very 
important. And of course if there isn't any sense that when can 
I be punished for coming forward, this very, very heavy 
presumption against coming forward. So I was interested to hear 
about--I don't remember even though I had to essentially reform 
the entire agency, creating new parts of the agency, bringing 
together people--I don't remember anything called directed 
reassignments. In my view I can think of no more powerful 
instrument in the hands of an agency. You testified, I think it 
was, Mr. Rhoades, about somebody just quit.
    Mr. Rhoades. Yes, sir.
    Ms. Norton. And if that was the intention, it certainly 
worked. Mr. Livingston, let me just start with you because you 
reported that you indeed did suffer discrimination at TSA. Is 
that right?
    Mr. Livingston. Yes, ma'am. Yes.
    Ms. Norton. And what was the basis for the discrimination?
    Mr. Livingston. It started with the disability harassment, 
and then it was based on my veteran status. They were making 
fun of me for my service-connected disabilities. Then it 
started with the--as the management directed official in a case 
for EEO, I found against the senior SES for preselection. Then 
it started with the sexual harassment. Another SES asked me to 
lie and I refused. And then there was another case where I 
reported serious security violations, and it started--that same 
official is the one that testified against me in my ERC or my 
probationary period.
    Ms. Norton. All right. This seems like one thing leads to 
another.
    Mr. Livingston. If you tell the truth in TSA, you will be 
targeted. I call it the Lord of the Flies. You either attack or 
be attacked.
    Mr. Rhoades. Ma'am, if I may?
    Ms. Norton. Yes.
    Mr. Rhoades. I was accused of going native.
    Ms. Norton. Going what?
    Mr. Rhoades. Going native.
    Ms. Norton. You will have to explain that, sir.
    Mr. Rhoades. Ma'am, it's a slang term where I was visiting 
mosques in my official role working with the Somali community 
where Jeh Johnson, my Secretary, tells me he wants me to 
conduct community outreach, and my supervisor accused me of 
going native. I take that to mean I'm somehow converting to 
Islam, I'm acting as a native. It's a disgusting, bigoted term. 
And when I think of that within the context of my written 
midyear evaluation that tells me to profile Somali people, I'm 
disgusted by it. Going native? I'm truly disgusted by it.
    Ms. Norton. Now, this committee and I think the House has 
unanimously passed a bill called the Federal Employee 
Antidiscrimination Act to help hold managers accountable. You 
know, the kinds of retaliation that would happen below your 
level perhaps is apparently better taken care of. Now, I was an 
original cosponsor. It looks like most of the committee was. 
This bill, by the way, is pending in the Senate. It hasn't 
passed the Senate yet.
    But it would require the agencies to keep track of every 
single complaint to somehow--for the string of issues, Mr. 
Livingston, for example, you indicated there would have to be a 
tracking of the complaint through inception and resolution. Do 
you think this would help bring some additional level, Mr. 
Livingston? Any of the three of you, I will start with you, Mr. 
Livingston ----
    Mr. Livingston. Yes, ma'am. Any time ----
    Ms. Norton.--to the process ----
    Mr. Livingston. Yes, ma'am. I think any time there's checks 
and balances, that you track that, I think that's always a good 
thing.
    Ms. Norton. See if something funny is going on here with a 
string of--did you see the string of ----
    Mr. Livingston. Oh, yes, ma'am.
    Ms. Norton. Yes.
    Mr. Livingston. I think TSA has a management protocol 
problem. I think if you can track and show the process--and I 
know that the committee has looked at it for years--I think if 
you can show that because all these leaders are not bad. Some 
are very good, exceptional. I could name several. But all it 
takes is somebody to circumvent that process, and now you've 
ruined the good work of many. But if you track that and you 
quantify it and you can show the progress of the well-intended, 
I think everybody benefits. If you have toxic, cancerous 
leaders that are injected into this process, it undoes all the 
good work that the well-intended leaders do. And that's why Mr. 
Neffenger needs a team around him that can do that.
    And this process that you're talking about, this tracking, 
this mechanism, the numbers and the data doesn't lie and it's 
forever. Once you put it into the record and once you track it, 
it's consistent over time. And that's what we need is 
consistent, persistent, quality leadership because factual data 
will make us better.
    Ms. Norton. And, Mr. Livingston, they gave me something of 
what you said, the staff, indicating that these nondisclosure 
agreements stand in the way. And of course I would like to know 
whether you think our bill that says that you can't restrict 
the employee from disclosing waste, fraud, or abuse to the 
Congress, special counsel, or the inspector general, whether 
that reaches far enough.
    Mr. Livingston. I think we overuse the nondisclosure 
agreements in my agency. I think every legal case we have ends 
in one, and I think that's an abuse of the power that we have. 
I did write a statement to that. I will look for it very 
quickly and read it to you. Every case from a misconduct to an 
EEO case ends in an NDA. That hides the potential to make us 
better, and at worst, it shows our problems. And at the least 
it shows a cover-up. Every case can't be an NDA. We have--
should have public disclosure. We should show the public what 
we're doing, and if we're hiding it, we're hiding something.
    Mr. Mica. I thank the gentleman.
    And I will recognize the gentleman from South Carolina, Mr. 
Mulvaney.
    Mr. Mulvaney. I thank the chairman. And I wish that Mr. 
Lynch had stuck around for just a few minutes because he said 
something, and I thought Mr. Brainard handled it very well, but 
I will go back just for the record and say I think Mr. Lynch 
mentioned at the end that the airlines were just interested in 
moving product, moving people through the room. And I think, 
Mr. Brainard, you handled that extraordinarily well.
    I think that is unfair. I know some folks who work there 
and their families fly, their friends fly, and they care just 
as much about safety as we do. It is probably just as 
inaccurate to say that the airlines only care about moving 
product as it would be to say that all you care about is safety 
and that you don't care about the folks who have to stand in 
line and how long they do.
    In fact, I look forward to a longer conversation with Mr. 
Lynch at another time as to who cares less about people, a 
corporation or a bureaucracy. My guess is they are probably 
tied.
    But I want to get back to the purpose of the hearing, which 
is to talk a little bit about the way that the employees are 
treated. And I just have to ask, and I don't know the answer to 
this question, is anybody familiar with the circumstance that 
happened at Charleston, South Carolina, with a Ms. Kimberly 
Barnett? Does that name ring a bell for anybody?
    Mr. Brainard. No, sir.
    Mr. Mulvaney. Just an example of exactly what we have 
talked about here today. She complained about her supervisor 
falsifying records in her area. Her area dealt with the K-9 use 
of the dog. And then she went to the OSC, which is where she 
was supposed to go, and made the complaint in June of 2014. And 
by November of 2014 she was fired. She was fired over a 
completely different allegation regarding using inappropriate 
language when her car got struck by a bus.
    So I wanted to mention her because it is more than just you 
gentlemen. We have heard your stories, but I think everybody 
from every one of our districts could bring some of these 
stories in.
    But let's talk about how to fix it and if it can be fixed 
because, Mr. Livingston, I think you hit the nail on the head 
which is your exact language was accountable leadership, which 
I agree with. Can you name for me a Federal agency that has 
that?
    Mr. Livingston. I used to work at the Nuclear Regulatory 
Commission, and I thought they had great leadership. I've 
worked at the Department of the Navy. I thought they've had it.
    Mr. Mulvaney. And they may have. All I can tell you is 
maybe it is just a function of what we do in this committee, 
but since we see the bad stuff all the time, we can tell you 
that again and again and again we can bring in examples of 
leadership breaking down, leadership not being accountable of 
folks not being able to fire people. You could have a hearing 
here every single day on how poorly the VA is run for the very 
same reasons.
    You mentioned one of the challenges that the agency faces 
is personnel.
    Mr. Livingston. Yes, sir.
    Mr. Mulvaney. And then I think you said that it was 
staffing and that it was money, but I feel it is incumbent upon 
me to point out that we haven't cut your budgets. Your budgets 
have been fairly flat for the last couple of years. So when you 
tell me that every day this summer is going to be like the day 
after Thanksgiving is, why is that? It can't just be money. In 
fact, it can't be money because we really haven't changed the 
money that much. And I will give both you ----
    Mr. Livingston. Sir ----
    Mr. Mulvaney.--a chance to answer that.
    Mr. Livingston.--we are in a perpetual human resource model 
where we are always recruiting and losing people. We don't have 
a sustainable model where we recruit and retain and promote the 
best workforce. If you don't sustain top quality people, then 
you're not going to get the best workforce. If we're always 
recruiting because we're always losing, you're not going to get 
the best people. If you don't take care of the people that you 
hire, they're not going to stay. If you don't take care of the 
people that you hire and get them into a career development, 
leadership program and if you don't take your best people and 
groom them for bigger, better positions, if you don't send them 
to the top level schools and if you don't invest in them and if 
you don't make people feel important and if you don't make 
people feel like you care about them, they're not going to stay 
no matter where they are.
    Mr. Mulvaney. I tend to agree with that. In fact, I agree 
with that wholeheartedly. In fact, anybody here who has ever 
had to hire or fire people or run an organization, public or 
private, probably agrees with that statement.
    Mr. Livingston. It's not money, sir; it's concerned, caring 
leadership. If people think you care about them, they'll take a 
bullet for you.
    Mr. Mulvaney. I absolutely agree, which leads me to my real 
question here. Why are we doing this? You have just described 
the same challenge that a private entity has in running its 
operation. You have described some of the same frustrations 
that we have with so many bureaucracies. The stories that you 
guys have told about whistleblowers getting fired, about not 
being able to deal with mal-performing employees, about 
unaccountable leadership, we hear that in here every single day 
from every single agency that we bring in.
    So my question is why are we doing this? Why wouldn't it be 
better to let private services serve this function? Why are we 
doing this? Can you defend the agency as to why the Federal 
Government needs to be doing this? Because it strikes me that 
if you all were contractors--because we have had contractors 
come in here before, Mr. Chairman, and there is always the 
threat hanging over a contractor which is we just fire him, we 
don't renew the contract. We don't have that with the TSA.
    So I guess I ask you to defend the Federal role here. Why 
are we doing this as a Federal Government as opposed to letting 
the private sector serve this need? Mr. Rhoades?
    Mr. Rhoades. I'd like to take a stab at that, sir.
    Mr. Mulvaney. Sure.
    Mr. Rhoades. I think the essential--one of the essential 
elements of a government is to protect its people. That's why 
you have a standing Army. I grew up as an Army ranger, and 
ranger lives and breathes a leader is responsible for his or 
her unit. He or she is responsible for everything that unit 
does or fails to do. And when there are failures, there must be 
consequences to those failures.
    We don't have consequences to our failures in TSA. If this 
have happened in the military, entire people in the chain of 
command would have been relieved of command.
    Mr. Mulvaney. And if a private sector company came to us 
with a 90 percent failure rate, we would fire them and replace 
them with somebody else.
    Mr. Rhoades. Absolutely. Yes, sir. But I'm just--suggest 
that whether it's private, whether we're title 5, whether we 
stay under ATSA, in my view, is irrelevant. It requires the 
most essential ingredient, and a private company--and I've 
worked for Kraft Foods in marketing--and that's leadership. I 
know it's the intangibles, but that's why we're all here 
because there's failures in leadership. It's failures of 
accountability, failures of a performance, but there's been 
nothing done. And that's why we're here.
    Mr. Mulvaney. And maybe my frustration--I will cut you off, 
Mr. Brainard, because I am over time and I don't want to take 
away from Mr. Grothman, but that frustration is embodied in 
experience in this committee every single day.
    Mr. Rhoades. Yes, sir.
    Mr. Mulvaney. So thank you, Mr. Chairman. I appreciate the 
indulgence.
    Mr. Mica. I thank the gentleman.
    Mr. Grothman, you are recognized.
    Mr. Grothman. I will start with Mr. Livingston. Here on the 
sheet they give us they call you Dr. Livingston.
    Mr. Livingston. Thank you. Yes, sir.
    Mr. Grothman. Are you aware of examples of an OI 
investigation that you believe was used specifically to remove 
anybody from the agency, any specific examples?
    Mr. Livingston. Well, I know that the morale survey that 
was used against me was tainted. I know that the OI 
investigation that was used against an FSD in Miami was used as 
an instrument to thwart a complaint. I know those are two 
examples.
    Mr. Grothman. And what do you do that you get yourself in 
trouble that they go after you?
    Mr. Livingston. Any time you go against the grain or you 
report misconduct or you tell on certain favored people, if you 
do anything that goes against the favored people, if you report 
misconduct, if you report sexual harassment, if you report 
security violations, if you do anything against the top tier or 
anything of that nature, it just seems to go against the grain, 
you identify yourself as a non-player. If you don't shut up, 
you don't move up.
    Mr. Grothman. Okay. So in other words, the mentality is not 
to do the best job that they can, what TSA should be doing. The 
idea is to establish kind of a respect for the people at the 
top?
    Mr. Livingston. Yes, sir. And I come from a DOD background 
where everything is a learning opportunity. We always do a hot 
wash after we have an exercise or an incident or a crisis. We 
always learn from that mistake. And everything is integrity-
based. If you don't say something, you're considered a weak 
leader. And I think the opposite in TSA, if you say something, 
you're considered an outsider.
    When I reported sexual harassment, I had another SES say, 
hey, if she files a complaint, it's our word against hers. And 
I said no, I'm not going to lie. And he says, well, if you 
don't, we can't work with you, and if you're going to be a boy 
scout, you'll be on my blank list. So obviously I was on the 
outside from the get-go. I was stunned that another SES would 
ask me to lie. And then when I didn't I was an outcast.
    Mr. Grothman. Because you saw something happen and were 
going to report it?
    Mr. Livingston. Absolutely. And I did.
    Mr. Grothman. Just a horrible mentality. Okay. We'll give 
Mr. Brainard and Mr. Rhoades a question. Could one of you give 
a background kind of on how integrity tests are conducted at 
the airports?
    Mr. Brainard. So I can give you some insight. Integrity 
testing in TSA when into high gear shortly after a media story 
about iPads were taking place. And our TSA Office of 
Inspection, otherwise known as Internal Affairs, will come out 
and they will run test items through, cash cards, money, DVDs, 
colognes, and things like that.
    And so the testing items, they come out, they conduct the 
integrity tests. When they conduct the integrity test, they'll 
come through with these items, and then the Federal security 
director will get a call and we will be notified of the 
outcome. Generally speaking, they'll say we came through with 
X, Y, and Z items. Can you recover them for us, whether they're 
turned into the lost and found?
    I will give you an example, which I think that you 
certainly will appreciate. One of the items that they're 
notorious for planting in an airport are pens. They'll throw a 
pen on the floor, let's say, in queue and a TSO picks it up and 
doesn't turn it in, they'll fly back out a couple of 
investigators and they'll literally interrogate them and push 
for a resignation or they'll propose removal for theft for a 
pen.
    And it--I know this because they've done it in my airports. 
I know this because they've joked about the fact that it's the 
most successful test they had. There was a TSO at an airport in 
the Midwest who, when he picked up the pen, threw it in the 
garbage because he didn't put any intrinsic value with a pen, 
didn't think it was worth any money. It's a $200 Montblanc pen. 
In my operation I happen to be one of the worst offenders of 
picking up pens that people are using.
    But the irony in all this when you're talking about testing 
is that you hold the people in the field to the highest 
standard, the people at headquarters to the lowest standard. 
We've got people who are picking up pens, pens, and they're 
sending out these criminal investigators for noncriminal 
matters.
    And, oh, by the way, it's commonplace for them to come out 
and threaten people with criminal prosecution. As a matter of 
fact, they'll take a noncriminal case to a local prosecutor as 
part of the TSA Fairness Act to say that they're spending 50 
percent of their time on criminal investigations so they can 
check that box. And they take and hold the field to a much 
different standard of accountability. They're doing people for 
pens while you've got people at our headquarters that are 
abusing their staff members.
    Mr. Grothman. So in other words, just kind of for kicks 
they put a stupid plastic pen on the ground, and if somebody --
--
    Mr. Brainard. It's a Montblanc pen. It's a metal pen. I 
mean, I can go to CVS and get something that looks just like 
it, and I couldn't tell the difference between that and a $7 
pen. I don't--I've never in my 13 years seen a passenger go and 
turn a pen in to lost and found at an airport. I'm sure it may 
have happened at some point, but if that's not just the most 
ridiculous use of the taxpayers' money, I don't know what is.
    Mr. Grothman. Okay. And do you think when they do these 
tests, do you think they ever target individual employees or 
individual airports or is there ----
    Mr. Brainard. No, I believe that the tests--I've never seen 
any indication that the tests are conducted for any particular 
reason.
    Mr. Grothman. Okay. Just kind of a general waste of time.
    Mr. Brainard. I think that that portion of the test is.
    Mr. Grothman. Yes.
    Mr. Brainard. I think that the integrity testing is 
absolutely essential. You know, one of the things--and I know 
you know this. The only people that hate to see thefts in the 
workplace more than the American public are our own employees. 
We don't want them working for us ----
    Mr. Grothman. Yes.
    Mr. Brainard.--any more than the public does.
    Mr. Grothman. Okay. Thanks for the extra time.
    Mr. Mica. Thank you. Let me yield to Ms. Norton--or let me 
yield to Mr. Cummings, and then he is going to yield to Ms. 
Norton.
    Mr. Cummings. First of all, I am going to have to go to 
another meeting, but I wanted to thank you all for being here. 
You have provided some very significant testimony. You know, as 
I said earlier, I think we need to see the entire picture. But 
we certainly cannot have a situation where whistleblowers even 
worry about retaliation let alone be the victims of it. And I 
think you will get that concern from both sides of the aisle. 
And so, again, I want to thank you all.
    And we have got to find a way to cut out that layer that 
you are talking about, those people who seem to want things to 
go on the way they have been going on, and the way they have 
been going on is not healthy. And it takes away from the morale 
of the agency and it takes away from its effectiveness and 
efficiency.
    And this whole idea--I know Ms. Norton is going to explore 
this--but this whole idea of people being sent from one part of 
the country to another and if that is about retaliation, I am 
going to tell you something, to me that is criminal.
    Mr. Rhoades. I agree.
    Mr. Cummings. Because families are so important, and those 
families who have to go through that hell, you know, your wife 
is on one end and the husband is on the other, life is short. 
But anyway, I will yield to Ms. Norton. And thank you.
    Mr. Rhoades. Yes, sir.
    Ms. Norton. I thank the ranking member for those comments.
    I just wanted to make sure I understand the difference 
between the legitimate use of a tool for management and its 
abuse. And I had asked you before about these directed 
reassignments, and I can see how it opens itself hugely for 
abuse and noted that apparently--and it is interesting. We 
passed the bill, but it looks like internally the agency has 
begun to take some action because it became apparently so open 
and such a problem within the agencies.
    I want to ask--particularly, I asked about directed 
reassignments. Now, here is a legitimate tool. I just want to 
know if it has been misused because we see this tool all across 
the government, and this is the capacity of the agency to ask 
the employee to move every 4 years. Now, we see that, I mean, 
the State Department, we see it in the armed services of the 
United States. I am sure I see it because I see very often a 
different person from the National Park Service, but I note 
that a former--I think this is a former administrator of TSA, 
suspended with tour of duty initiative whereby the FSDs would 
be moved every 4 years. Why would he do that?
    Mr. Brainard. So if I can take that, you're speaking of Mr. 
Mel Carraway. Mr. Carraway was the acting administrator for 
about a minute in between the transitions. Mr. Carraway not 
only saw the detrimental effect that it had on the culture of 
our workforce, he'd also been subjected to it himself. So he'd 
walked that mile. Mel was a good man. And Mel suspended that 
practice. And when Mr. Neffenger came in, during his October 
Leadership Summit of 2015, he reaffirmed to hold what Mr. 
Carraway had done.
    So I'm not sure if they've tried to do it since Mr. 
Carraway put a freeze on it because sometimes there are things 
that go on you don't find out about until the bell's been rung. 
But Mr. Carraway did freeze that process. He saw the problem 
with it, and anybody would. When you sit down and look at the 
information, it is crystal clear, it's blatant, it's obvious.
    Ms. Norton. So it was a problem in that agency. I indicated 
that TSA is not unusual in having this tour-of-duty ----
    Mr. Brainard. It actually is.
    Ms. Norton.--notion.
    Mr. Brainard. It actually is. Last year--when I hired in as 
a Federal security director right after 9/11, I did not sign a 
mobility agreement, okay? Just so you ----
    Ms. Norton. What kind of agreement? I'm sorry.
    Mr. Brainard. Mobility agreement. So ----
    Ms. Norton. Mobility agreement.
    Mr. Brainard.--SES--mobility agreement. The SES ----
    Ms. Norton. So you don't have to sign?
    Mr. Brainard. You do not. The SES signs a mobility 
agreement. The TSA Office of Law Enforcement signs a mobility 
agreement. The Senior Leadership Development Program, if you 
want to be a candidate, you sign a mobility agreement. But 
there is no tour of duty on that. What they did is they 
established a mobility process with the Federal security 
directors and then just started moving them around. And they 
didn't have a business reason to do it regardless of what was 
put in there. And that's certainly--we're certainly able to 
articulate that.
    Ms. Norton. Mr. Rhoades?
    Mr. Rhoades. Ma'am, Mr. Brainard had talked how Mel 
Carraway suspended tour-of-duty lengths initiative. That 
happened in November of 2014. I received my directed 
reassignment February 19 ----
    Ms. Norton. So that is different from tour of duty?
    Mr. Rhoades. You're just calling the same thing a directed 
reassignment. What's probably important for the committee to 
understand, on the night of February 19, 2015, my former 
Federal security director Ken Kasprisin called Mel Carraway on 
his cell phone. I was in his house. I heard every word Mel 
Carraway said. ``Rhoades shouldn't have gotten that directed 
reassignment. I suspended that action.'' That did not go 
through what's called the Executive Resources Council.
    So it goes back to the point that I want to reinforce here. 
We can have all the policies we want written down, but if we're 
going to ignore them or work around them or lie about them, 
then it's ineffective.
    Ms. Norton. So you can call it a tour-of-duty reassignment, 
you can call it a directed reassignment. Look, I am pleased 
that my friends and colleagues on the other side have the same 
view about the kind of minimal protections and even at your 
level that civil servants have.
    I do note that we passed and I am so pleased we passed a 
bill ourselves, which is waiting for the Senate. You know, it 
didn't take a bill to do something about this. I noted that on 
March 24 of this year, apparently the present administrator--a 
detailed explanation of why this employee must be reassigned 
involuntarily versus any other options--any other options, it 
seems to me, is important--for this employee and/or the new 
position. Does that help this situation?
    Mr. Brainard. I think--you know, this is a question of 
using policy in such a way that you can push an agenda that's 
not healthy for the organization. There would be legitimate 
reasons why you might do a directed reassignment. You may have 
somebody who is not performing well, you have hired the wrong 
person for the position, you may have somebody who's abusive to 
the workforce, you may not be able to terminate somebody, they 
may not have reached that level, but you are prepared to sit 
down and have an options meeting and say, look, we need to talk 
about the road ahead, and you being at this location is not 
going to work.
    There are circumstances where you would do a directed 
reassignment, and I think that there is some legitimacy to 
that. And this goes back to do you have a policy in place that 
governs this, and if there is, are people manipulating the 
policy? I'll tell you a comment that I heard and I'll say it in 
this hearing because there are about 300 witnesses to it on a 
conference call from the previous deputy administrator Mr. 
Halinski when they were talking about ethics and 
accountability. And he said to take action and let them file a 
lawsuit. ``I've got 300 attorneys and I'll tie him up forever 
in court.''
    That's the mentality that these people have. They feel that 
they're bankrolled by the Federal Government to make these 
decisions. They don't care if you're going to file an EEO, they 
don't care if you contact the OIG. It's very difficult to get 
the OIG or OSC to accept a complaint. There needs to be 
legitimacy with this, and that's what these types of moves are 
absent.
    Mr. Livingston. In my case when they ended my probationary, 
the argument was made they had no proof, and they said don't 
worry about it. Let him file a complaint. We'll outlast him.
    Ms. Norton. I certainly hope--Mr. Chairman, I very much 
appreciate your indulgence because I certainly--as I said, our 
committee moved unanimously and the House moved unanimously on 
this. Of course, the nuances are quite different. This is where 
the agency itself, with this detailed explanation, if you 
really hold people accountable, yes, let's put it in writing of 
why the employee must be reassigned. I particularly like the 
part that says let's go over what the options are. Instead of 
uprooting you, let's see what the options are. And there may be 
no option.
    I must say, Mr. Brainard, I particularly appreciated your 
explanation because you seem to understand that there are some 
reasons for these policies and that what we are here discussing 
are not the reasons that are used across the government but the 
abuse of these policies in TSA in particular.
    And I thank you very much for your testimony.
    Mr. Mica. I thank the gentlelady.
    I want to conclude, and I thank all the members for their 
participation, particularly grateful for you all coming 
forward.
    As I said earlier, I think you have confirmed some of our 
worst suspicions of what we have heard was going on, and it 
takes some brave people to come forward, especially from an 
agency that is renowned for retaliation, has grown renowned for 
gagging its employees. And those who step forward and have 
reported some of the problems are paying some pretty high 
penalties. It is abusive to you, it is abusive to the system.
    I was one of the people who created TSA way back after 9/11 
as the chair of Aviation Subcommittee. The President wanted it 
on his desk by Thanksgiving and we did that. We tried to 
structure something that would replace what we had. First of 
all, I think that there should be a Federal responsibility, and 
all of you agree to that. We changed from having the airlines 
and the private sector just do--well, there weren't Federal 
guidelines in place, and they failed to put them in place. So I 
think that is important. I have never said do away with it. I 
have said change the role.
    The most shocking testimony or thing I heard today was the 
abuses and what they have done to you all is uncalled for, 
horrible, but one of you--was it Mr. Livingston--talked about 
the intel and analysis capability?
    Mr. Livingston. Yes, sir.
    Mr. Mica. That really scares me. The most important 
responsibility of that agency is to connect the dots. The intel 
and analysis is all that is going to save us in my opinion. I 
will probably call--I am going to ask the administrator to take 
action to revamp that activity. That is the most important 
government responsibility, the intelligence-gathering, the 
information, all the stuff we need to keep people from doing 
damage to us. And when you come and testify to me and you are 
familiar with it, that that is one of our weak spots, is that 
correct again, Mr. Livingston?
    Mr. Livingston. Yes, sir.
    Mr. Mica. That to me is absolutely scary. I helped put this 
system together. I have tried to help TSA when it failed. I 
mean, we did everything from Washington. That was a disaster. 
We have tried to localize some of the hiring and other 
activities. The problem is it is so big they can't think out of 
the box. And you have people who you identified today in 
control. You can have the administrator but you have got other 
people in control who are revengeful, who have taken actions 
that are just unacceptable.
    I can see replacing--if there is a vacancy and you have to 
move somebody to fill that vacancy, if we have got to secure 
that important FSD position, so be it, and if there is 
compensation needed to move that person. But what you have 
described is just an abuse of authority today. And then the 
cost is, you said, $197,000 on one of them. It is just 
unbelievable.
    So the intel bothers me. I will be writing Neffenger. He is 
coming in. We have got to get that piece of the puzzle there.
    I don't care who you put there, private screeners, public 
screeners, whatever it is, things will get through, okay? The 
system is human beings. But when you fail--well, if we spent 
some of that money in looking at people who pose a risk, 
whether they are--even screening people who are working behind 
the scenes, we had a hearing on that. There are hundreds of 
people. They don't have a passport number, they don't have 
Social Security numbers for folks, not all TSA folks but even 
with TSA they haven't screened some of those people.
    The Miami and Orlando and there is one more airport where 
they are screening the workers, that is a waste of money. That 
is not the way you do it. They check them and they can go 
through, as you know. And once they are into the secure area, 
they have hammers, they have knives, they have all kinds of 
things that are not allowed, and they have chemicals and 
everything else, plus they have access to the aircraft, which 
they could do a lot of damage to.
    So we waste money. That is congressionally imposed, some of 
that where it could be better spent. Would you agree with that?
    Mr. Rhoades. Yes, sir.
    Mr. Livingston. Yes, sir. I would agree.
    Mr. Brainard. Absolutely.
    Mr. Mica. Let me just say one thing, too, and I am glad 
that some of the union folks came. I am a Republican. When I 
wrote the bill, I made certain that the TSA and TSOs had the 
ability to belong to a union. I strongly believe in that right 
of every American worker. I don't think anyone should be forced 
to join a union on the other hand.
    But we put that in the provision, the five private 
screening under Federal supervision operations that we set up. 
San Francisco was private, has been union from the beginning 
long before the rest of the crowd got that.
    So it is not a question of union representation, and I 
don't think people should fear public versus private, even the 
TSA folks. I know some of them fear that. But it does involve 
some competition. And I heard you all speak to that. And Mr. 
Lynch isn't here. But again, we need to protect that right.
    We exempted them from title 5. Some can get fired because 
that is the way we set it up. It sounds like some of the wrong 
people are getting removed, and the money is going to the wrong 
folks. In the private screening, they have actually increased 
some of the compensations for the TSO to retain better people 
and be more flexible and scheduling and things like that that 
can be adapted. That is one reason I favored that model under 
Federal supervision.
    What you described today is very scary. I cited all the 
history of what has been going on with the delays, but for you 
to come here, you said, Mr. Rhoades, Mr. Livingston, Mr. 
Brainard, that there was no plan B and that we expect a 
meltdown this summer, is that correct?
    Mr. Brainard. Yes, sir.
    Mr. Mica. Yes.
    Mr. Livingston. Yes, sir.
    Mr. Mica. Yes.
    Mr. Rhoades. Yes, sir.
    Mr. Mica. Mr. Rhoades?
    Mr. Brainard. Yes, if I can say something with that.
    Mr. Mica. Go ahead.
    Mr. Brainard. You know, Federal security directors are 
working with their staff, are working with the airports, are 
working with the airlines. We have faced tougher challenges in 
our history standing up, as you well know as one of the 
founders of our agency. I'm confident that we're going to be 
able to find workable solutions as long as we're keeping 
partnerships with our stakeholders so ----
    Mr. Mica. And you have had a lot of good workers out there, 
too ----
    Mr. Brainard. Absolutely.
    Mr. Mica.--who should be rewarded. We need a better way of 
rewarding and retaining the good TSO workers, get rid of some 
of the bureaucrats at the top who are causing most of the 
problems. And I guess over the years they felt threatened, 
particularly by me because I keep saying, my goodness, we have 
got this huge bureaucracy, many of them just a few miles from 
here, and they are very domineering over the bureaucracy and 
anyone who gets in their way.
    I dealt with them in privatizing one of my airports. I have 
always left that option open. One of my local airports 
requested to opt out, and then they came down and he told me he 
had never been so intimidated, so threatened. It took 2 years 
to just get us to get consideration of the opt-out, and then I 
had to change the law where they must accept the application 
rather than when we set it up it was left permissive with the 
language ``shall.'' So that is the reason that we got into that 
situation.
    But then it took 2 years more while they thwarted our 
Congress's intent. And again, we have 450 airports. We need 
different models. Alaska is different from Wyoming is different 
from JFK, et cetera, and the flexibility to do that with the 
right balance of public-private operations. But I would never 
take the Federal Government out.
    And again, the people--there are a lot of junior Members 
here. Nobody understands the significance of what you confirmed 
today on this intel and analysis situation because that is the 
only thing, I think, that will save us. Maybe you have a 
different opinion, Mr. Livingston.
    Mr. Livingston. No, sir. I just want to go on the record 
saying while you don't have intel leadership, you do have some 
top-quality ----
    Mr. Mica. Yes.
    Mr. Livingston.--intel professionals ----
    Mr. Mica. Yes.
    Mr. Livingston.--working in that office. The advanced 
analytic part that I brought in is still functioning very 
effectively, and I think Mr. Neffenger is going to tell you 
that he's getting some great intel support from them.
    Mr. Mica. Great.
    Mr. Livingston. But with the right intel leadership, it'll 
continue to function ----
    Mr. Mica. Yes.
    Mr. Livingston.--even better.
    Mr. Mica. Well, I would put the resources there. The BDOs 
have been--we have suggested it. Is hasn't worked out well, as 
you know. And then the other thing, too, is you have these 
lines that extend out from the airports. We saw what happened 
in Brussels. It was an attack on the American Airlines and the 
passengers. Their intent was to kill as many as they can. You 
cited the attack in Los Angeles. So they are looking for the 
easiest targets.
    TSA provides a layer of protection. Once they get past 
that, then we have got secure cockpit doors, we have got air 
marshals, we have got pilots who are armed. The biggest thing 
we have, and they have always come to rescue since that hour of 
9/11 when the passengers on Flight 93 found out what was going 
on, the passengers will beat the living hell out of anyone who 
poses a true risk. And they have saved the day. And also the 
airline staff, I have to give them credit. They have been 
there, too.
    So, again, my concern, we built this huge bureaucracy. We 
have got these bureaucrats in charge. They have their 
revengeful way of controlling the agency, which it shouldn't 
be. So I am glad to hear the confidence everybody has in 
Neffenger. I am not happy to hear there is no plan B. That is 
essential. And we have got to make certain--I mean, we cast a 
lot of responsibility for the FSDs and making it work, and they 
are going to catch holy heck when those lines continue to back 
up.
    But some commonsense things, the pre-check, advancing that. 
I have gone to National, and I will say it has improved because 
I have thrown a couple of fits, but there are more people in 
pre-check than there are in the other lines and nobody moves 
them to accommodate people.
    I saw the dogs the other day, and they are using the dogs 
and people in line to get into TSA. I think we need to move a 
few dogs to the front doorway like the Israelis do. They are 
checking people as they come in before they can get to the line 
to take out the people like they did in Brussels. So just some 
suggestions, again, the common sense that I hope you all can 
take back. I know you have tried to make positive suggestions 
and been--and also I don't think any of you did it to be mean 
or vengeful to anybody above, but you have the best interest, I 
think, of the public and those who work for us.
    Not as many questions as comments. Very helpful hearing. We 
will have the administrator in in a couple of weeks here. Any 
last remarks, Mr. Brainard?
    Mr. Brainard. You know, one of the things they talked 
about, and I guess because this committee certainly has some 
level of influence, when you talk about our workforce and the 
wonderful people that come to work every day, if I could just 
kind of pose it like this. Imagine if every year you had to run 
for reelection. I mean, you'd almost never get ----
    Mr. Mica. I do it every two.
    Mr. Brainard. Well, imagine doing it every year.
    Mr. Mica. My contract expires every 24 months.
    Mr. Brainard. Well, with our people it expires every year 
----
    Mr. Mica. Yes.
    Mr. Brainard.--and they've got to recertify for their job, 
and I would hope that at least in looking forward, one of the 
things that we could certainly do better with our people is 
find another option. Our people get incredibly stressed out 
every year. They do a very stressful job as it is. They do it 
very well. What you don't hear about in the media a lot of 
times are the success stories that do happen every day, the 
amount of dangerous items they are preventing to get on 
aircraft. And I know that our people in some cases could 
certainly find other opportunities. We're very grateful to have 
the wonderful team that we do. But if there's a way to take 
that stress off our workforce ----
    Mr. Mica. Yes.
    Mr. Brainard.--we would really appreciate it.
    Mr. Mica. Well, again, it starts from up here, and you all, 
the FSDs work at certain constraints from what comes from--you 
know, it flows downhill as the saying goes.
    Mr. Livingston?
    Mr. Livingston. Sir, we have brought up some very serious 
issues here today. Some were new, some were reported back in 
the original GAO summary that went to you in October 2009. But 
if we can agree that some of these need to be addressed now --
--
    Mr. Mica. Absolutely.
    Mr. Livingston.--and to support the administrator, this is 
a prime opportunity to advance the operational success ----
    Mr. Mica. Yes.
    Mr. Livingston.--of TSA. None of the things said today here 
were personal or specifically ----
    Mr. Mica. No. No. And you are ----
    Mr. Livingston. Yes, sir.
    Mr. Mica.--speaking in the betterment of TSA.
    Mr. Livingston. And the last two points, sir, is if we 
could take a look at how the ERC or the Executive Resource 
Council appoints these SESs at TSA. That might be a way for you 
to exert your most control over TSA because that's where the 
pay ----
    Mr. Mica. Right.
    Mr. Livingston.--the assignments, the selections, the--
that's where--that's the nucleus for everything. And I'm just 
not sure that it isn't effective in the best interest because 
I've heard you speak several times, both here and on the 
committees and to the administrator. And several things you've 
said over and over but I haven't seen the actual actions that 
you've ----
    Mr. Mica. Well, you can't imagine my frustration.
    Mr. Livingston. Yes, sir.
    Mr. Mica. And sometimes, they have ignored me. They have 
tried to do everything that they can to divert, to ----
    Mr. Livingston. Yes, sir. But I think if you ----
    Mr. Mica.--other ----
    Mr. Livingston.--exerted control ----
    Mr. Mica. Well, I think, again, you saw sort of bipartisan 
support. Again, I have never, since we created TSA have never 
seen anyone come forward. Most people have been afraid to come 
forward. I remember we offered some people to even put bags 
over their heads. I think we have done it in the past with some 
witnesses to come in and testify. But you all are very brave. 
You have stood up to it, and I think you do it, again, not to 
be mean towards anyone or vindictive towards anyone but to 
better the operations which you see.
    Mr. Rhoades, you wanted to conclude?
    Mr. Rhoades. Yes, sir. I want to thank you for the 
opportunity to speak before the committee. It's very important 
to me. I hope I've communicated issues along with resolutions 
after reflective thought, and I'm very humbled that--to be 
asked here.
    I appreciate the opportunity to be heard. If there is one 
thing that I wish the committee would have oversight on is the 
directed reassignments policy. It is absolutely abysmal.
    Mr. Mica. Yes.
    Mr. Rhoades. And this is not personal. It's professional to 
me. As a parting suggestion, I would do an audit of all the TSA 
programs, awards, hiring, external to TSA because you cannot 
fix a problem unless you diagnose it correctly. And the TSA has 
a history and has certainly demonstrated that the 
responsiveness at times has not been there, however 
embarrassing it is. But in order for us to get healthier, we 
have to diagnose the problem and we have to take our medicine.
    Thank you very much, sir.
    Mr. Mica. Well, I appreciate, again, all three of you 
stepping forward. I think, again, this can be a constructive 
hearing and hopefully constructive path forward that you all 
have helped lay out.
    So there being no further business before the committee, 
this meeting is adjourned.
    [Whereupon, at 12:36 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
